                                                                                                                      Denali Commission
                                                                                                                    510 L Street, Suite 410
                                                                                                                    Anchorage, AK 99501

                                                                                                                         907.271.1414 tel
                                                                                                                        907.271.1415 fax
                                                                                                                    888.480.4321 toll free
                                                                                                                          www.denali.gov



                                                                                                                INSPECTOR GENERAL

                                                            June 10, 2012


To:             Joel Neimeyer, Federal Co-Chair                                                                 FINAL REPORT
                                                                                                                   ────
                                                                                                              FOR PUBLIC RELEASE
From:           Mike Marsh, CPA, MPA, CFE, Esq., Inspector General


Subject: Inspection of $50,000 payment to Alaska Forum Inc. for 2009 training event


                                                PURPOSE OF THE INSPECTION

One of the most persistent controversies at the Denali Commission (Denali) has been its payment
of $50,000 toward an intergovernmental training event that was held in Anchorage during the
winter of 2009. Denali made this payment as part of a consortium of 19 federal agencies that
pooled their funds to provide five days of training for themselves and those they fund or regulate.

This training event is not a new one. Alaska’s federal agencies have convened it with various
stakeholders on 14 occasions since it started back in 1990 as the “Alaska Federal Facility
Environmental Roundtable.” Shortly thereafter, the event was renamed the “Alaska Forum on the
Environment.” And a nonprofit organization was incorporated under the same name to act as the
service provider who organizes and promotes the event.

Denali’s payment — like those of the other federal agencies — was sent to this nonprofit
corporation (hereafter Alaska Forum Inc.).

Leaders from two statewide interest groups (hereafter Complainant-1 and Complainant-2)
complained about several aspects of Denali’s $50,000 payment toward the 2009 edition of the
event. The Office of Inspector General (OIG) notes that these complaints occurred in the course
of their representation of these interest groups, rather than within the statutory scope of any
advisory role to the Government.

One or more Members of Congress contacted Denali’s agency head at some point in the fall of
2008.1 The agency head responded by attempting to get his money back shortly before the event
began. Over three years later, the agency head is still trying to get his money back.


1
    Though this contact occurred in the context of constituent casework, memories vary as to the specifics.
OIG inspection of payment                                       2                                             June 10, 2012
to Alaska Forum Inc.


The consortium of other federal agencies continues to support this annual training event and to
find it beneficial in delivering their services. But Denali has not contributed any funding since its
dispute over the 2009 event.

OIG previously inspected this event back in 2009, and we confirmed for the agency head that it
was a valid use of federal funds under appropriation laws and Denali’s enabling act. However,
after learning of the continuing dispute over repayment, we reopened our prior inspection in
hopes of finally bringing the matter to closure for all concerned.2

The purpose of this reopened inspection was to review Denali’s compliance with the applicable
laws and agreements. Our inspection was conducted pursuant to the Inspector General Act,3
the standard assurances in OMB Form 424B,4 regulation 2 CFR 215.53(e), and the CIGIE in-
spection standards.

A draft of this report was provided to Denali’s agency head, with the opportunity to comment
either formally or informally at his discretion. His informal comments were genuinely helpful to
OIG as we considered the potential solutions for this persistent dispute.


                                         BACKGROUND OF THE TRANSACTION

Nature of the convening consortium

The consortium of agencies functions an informal working group rather a formal organization
with a separate legal existence. Every several years, the interested agencies sign a non-binding
“statement of cooperation” that articulates their general aspirations for a successful working
relationship. Denali signed the most recent statement in February 2012.

One theme can be summarized as the agencies’ desire to resolve ambiguities (“issues” and
“concerns”) as to who will do what for whom. Though no particular laws are cited, this
implicitly supports congressional goals for agencies to pursue alternative dispute resolution,5
negotiated rulemaking,6 and voluntary compliance in the implementation of their programs.


2
  This is an appropriate role for us given that section 4(a)(4) of the Inspector General Act directs inspector generals to do the
following:
        to recommend policies for, and to conduct, supervise, or coordinate relationships between such establishment and
        other Federal agencies, State and local governmental agencies, and nongovernmental entities with respect to (A) all
        matters relating to the promotion of economy and efficiency in the administration of . . . programs and opera-
        tions . . .
3
    See sections 4(a) and 6(a).
4
    See section 2.
5
    See 5 USC 572(a); 41 USC 7103(h).
6
    See 5 USC 561.
OIG inspection of payment                                      3                                              June 10, 2012
to Alaska Forum Inc.


The statement of cooperation also pledges to “[c]oordinate consultation with federally recog-
nized tribes, as appropriate, when planning significant environmental actions that involve
multiple Parties and common issues among the Parties.” Though, again, no specific law is cited,
the provision implicitly supports the President’s executive order for enhanced federal
“consultation and coordination” with tribal governments.”7

And, most pertinent to the event in question, is the agencies’ aspiration to:

            Promote education and training with an emphasis on seeking solutions to human health
            and environmental issues that affect Alaska, such as the Alaska Forum on the Environ-
            ment.

This seems quite consistent with the statutory authority that Congress has provided for federal
agencies to fund the participation by employees of state, local, and tribal governments in training
events.8

Nevertheless, the statement of cooperation leaves it to each agency to make its own agreement
with Alaska Forum Inc. as to the funding and personnel — if any — that an agency chooses to
provide for such an event:

            This is not an enforceable legal agreement. The Parties may develop separate, more
            detailed agreements as needed. Efforts under this [statement of cooperation] shall be
            consistent with applicable federal and state laws and regulations, and are subject to the
            availability of duly appropriated funds. . .

Each agency that wishes to contribute must determine the availability of its appropriations and
then structure the transaction to reflect its purpose for participation. While the event is in
substance an annual joint venture, the binding agreements are between the individual agency and
Alaska Forum Inc. as the service provider. In other words, the appropriate legal instrument to
support this event can vary considerably between agencies.


Historical context of the consortium’s event

The existence of such an event in Alaska is not surprising. The federal government is the largest
employer in the state, and payments by federal agencies are important to the state’s economy.
Alaska leads the nation in its per capita receipt of federal grants. Alaska ranks fourth in the
nation in its per capita receipt of federal contracts. And over half of the state’s land is still under
federal control.9


7
    See Consultation and Coordination With Indian Tribal Governments, Executive Order 13175 (Nov. 6, 2000).
8
    See 42 USC 4742, 42 USC 4762.
9
 See Neal Fried, “Federal Spending in Alaska,” Alaska Economic Trends (Alaska Dept. of Labor and Workforce Development,
Feb. 2012), pages 4-8, at http://labor.alaska.gov/trends/feb12.pdf.
OIG inspection of payment                                    4                                                June 10, 2012
to Alaska Forum Inc.


Exhibits 1 to 3, 5, and 7 to 10 quote the
perspectives of other federal agencies as to                                               EXHIBIT 1
what they get for the money they spend on
                                                                           PERSPECTIVE OF THE U.S. ARMY
this event. All of these quotes are directly
from the agencies’ public home pages
(retrieved in May 2012).                                           “Alaska Forum on the Environment (AFE) — This
                                                                   world world-class event facilitates education and
While the event is traditionally portrayed as                      interaction among all government agencies, non-
an intergovernmental training activity, it also                    profit organizations and the general public. The
                                                                   AFE is designed to seek understanding and
functions similarly to alternative dispute
                                                                   solutions for many of Alaska's greatest
resolution, negotiated rulemaking, and other                       environmental challenges. Keynote speakers and
catalysts for voluntary compliance.                                breakout sessions provide both environmental
                                                                   educational and cross-cultural opportunities for
Alaskan stakeholders have a long history of                        attendees. U. S. Army Alaska, the Alaska Army
battling the degree to which federal programs                      National Guard and the Alaska Army Corps of
should develop the state rather than preserve                      Engineers participate in the funding, planning and
it without development. The lore is that the                       execution of the AFE.”
Panama Canal would still be only a dream if                              Source: www.asaie.army.mil/Public/ESOH/REEO/
its proponents had faced the federal litigation                         Western/ partnerships.html (retrieved May 23, 2012)
seen in Alaska’s first 50 years of statehood.

In the 1950s, Alaskans successfully protested
a federal agency’s plan to atomically blast a
harbor north of Kotzebue.10 In the 1960s,                                                  EXHIBIT 2
federal agencies conducted nuclear tests in the
                                                                               PERSPECTIVE OF THE
Aleutians that culminated in a ruling by the                               BUREAU OF LAND MANAGEMENT
U.S. Supreme Court and the start of
Greenpeace. And both of these Cold War
decades saw federal construction of the                            After the 2012 event:
electronic wall that stretched offshore from                       “BLM . . . hosted ‘What's Happening at Red Devil
the ocean floor to outer space.                                    Mine? A Talking Circle for Interested Kuskokwim
                                                                   Communities’ during the 2012 Alaska Forum on
In the 1970s, federal approvals resulted in the                    the Environment. Approximately 50 tribal, com-
pipeline whose effects have indirectly funded                      munity, agency and corporate representatives
the state’s government to this day. And                            attended the session.”
federal agencies finally put to rest decades of
                                                                             Source: www.blm.gov/ak/st/en/fo/ado.html
debate over whether the Yukon River should                                           (retrieved May 23, 2012)
be dammed to create a hydroelectric lake the
size of Lake Erie.

In the 1980s, federal agencies coordinated the cleanup and public redress for a record oil spill.
And the federal and state courts offered differing solutions to the allocation of Alaskan wildlife
among the many residents seeking to hunt and fish.
10
  See William Hedman and Charles Diters, The Legacy of Project Chariot (Bureau of Indian Affairs, ca. 2005) and Dan O’Neill,
The Firecracker Boys (Basic Books, 2007).
OIG inspection of payment                                   5                                             June 10, 2012
to Alaska Forum Inc.




In the 1990s, Alaska saw a quiet construction
boom as agencies coordinated the remedia-
tion of a multitude of military sites going                                             EXHIBIT 3
back to World War II.                                               PERSPECTIVE OF THE U.S. COAST GUARD

After the year 2000, agencies pondered the
federal response to relocating settlements as                     Before the 2009 event:
nature was relocating the state’s coastlines.                     “Coast Guard personnel from around the state will
And yet another federal agency grappled with                      participate in several discussion panels during the
the nationally-publicized possibility of using                    2009 Alaska Forum on the Environment
small nuclear reactors to address the fuel                        Conference Monday through Thursday at the
crisis in bush settlements.11                                     Dena'ina and Egan Convention Centers. . .

Now in the decade of 2010, the Alaskan                            “The Alaska Forum on the Environment is a
                                                                  statewide gathering of environmental scientists
frontiers for federal agencies concern the
                                                                  and professionals from government agencies, non-
possibilities of new drilling, a new pipeline, a                  profit and for-profit businesses, community
new mine, and new shipping routes across the                      leaders, Alaskan youth, conservationists, biologists
North Pole. And agencies are considering                          and community elders. . .”
their response to the floating debris that is
                                                                      Source: www.d17.uscgnews.com (Jan. 29, 2009 “media
arriving at the state’s shoreline from Japan’s                        advisory”), retrieved May 23, 2012.
tsunami disaster.
                                                                                    ───────────
Regardless of an interest group’s policy                          After the 2009 event:
perspective on “environmental” issues, most
players now acknowledge that periodic                             “During the Alaska Forum on the Environment in
                                                                  Anchorage this past February [2009] I listened to
federal conversations with the public —                           briefs from nine coastal communities who were at
whether labeled as voluntary compliance,                          risk from the sea due to coastal erosion.”
negotiated rulemaking, or alternative dispute
resolution — can be more productive than                              Source: www.d17.uscgnews.com/go/doc/780/
                                                                      230836/Arctic-Journal-by-RADM-Brooks (article
decade-long lawsuits. Federal agencies in                             by district commander dated March 24, 2009),
Alaska have a long history of trying different                        retrieved May 23, 2012

approaches to arbitrate competing demands
— as the cycles of nature and the nation have
giveth and taketh away.




11
  See “10 Audacious Ideas to Save the Planet,” Popular Science, July 2008, pages 42-43, and Gwyneth Cravens, Power to Save
the World: The Truth About Nuclear Energy (Knopf 2007), page 363.
OIG inspection of payment                                     6                                              June 10, 2012
to Alaska Forum Inc.



                                                                                              EXHIBIT 4
The 2009 event in question
                                                                                 SUBJECT AREAS OF SESSIONS
                                                                                       AT 2009 EVENT
The $50,000 in dispute was a payment that Denali
made toward the 2009 edition of the event.                                                Subject area                  No.
Denali’s payment — like those of the other federal
agencies — was sent to Alaska Forum Inc. The                             Arctic issues                                   15
purpose of this corporation is to produce the annual
                                                                         Clean up & remediation                          21
training event (a “forum”).12
                                                                         Climate change                                  15
It is heavily a federally sponsored event, with
federal agencies as two-thirds of the contributing                       Contaminants & human health                      9
organizations listed in the 2009 program publica-                        Denali Commission                                3
tion, as well as on the event’s current home page.13
And the published program for 2009 also shows                            Energy                                          15
that 17 out of 39 members on the planning commit-
                                                                         Environmental education & outreach              14
tee were from federal agencies.
                                                                         Environmental justice                            3
While nonfederal players were important partici-
pants in the 2009 event, its dominant purpose was                        Environmental regulations                        6
to market the services of federal agencies and train                     Exxon Valdez oil spill                           7
stakeholders about the oversight expected in return
(build the latter’s “capacity”). This is evident from                    Federal government issues                       20
the content of the published program with its 150+                       Fish, wildlife & habitat                        25
sessions (see Exhibit 4). Readers can see for them-
selves in the excerpt from the 2009 program                              General assistance program                      36
publication included in the Appendix.
                                                                         Green building                                   7
The content shown in the published program differs                       National Environmental Policy Act                4
markedly from the classic interest group conven-
tions that balance business with advocacy, social-                       Rural issues                                     7
izing, and entertainment. And Anchorage in Febru-                        Science & technology                             5
ary obviously has less appeal as a “recreational
destination” than during its summer months when                          Solid waste & recycling                          9
such social conventions are often held.
                                                                         Subsistence                                     14

                                                                         Source: Subject areas per 2009 program publication.
                                                                         Some sessions counted in multiple categories.




12
  The corporation’s 2009 Biennial Report, filed with the State of Alaska, describes its business as one to “provide a forum in
which to present environmental topics.”
13
     See www.akforum.org (retrieved on May 16, 2012).
OIG inspection of payment                                       7                                                June 10, 2012
to Alaska Forum Inc.



                                                        CONCLUSIONS


Denali’s “sponsorship” had the legal status of
a contract for services to the Government.                                                    EXHIBIT 5
                                                                                     PERSPECTIVE OF THE
Over the past 13 years, Denali has experi-                                        FISH AND WILDLIFE SERVICE
mented with various criteria for distributing
payments that the agency calls its                                     After the 2010 event:
“sponsorships.” The $50,000 payment in
question was one of these. Denali processed                             “For its third consecutive year, an interagency fire
this payment on the “federal financial award”                           prevention and education group has sponsored
form that it uses for grants.14                                         an exhibit at the Alaska Forum on the
                                                                        Environment. This year, the U.S. Fish and Wildlife
                                                                        coordinated staffing of the booth, making 138
However, the legal status of a “sponsorship”                            contacts with 66 different public and private
— and the applicable federal rules — depend                             agencies and 61 communities from all over
greatly upon its purpose. When the main                                 Alaska, the Yukon Territory in Canada, and
purpose is to publicly subsidize the work of                            Washington, D.C.
the recipient, the funding constitutes a
“grant.”15 When the main purpose is to                                  “The 2010 Alaska Forum on the Environment was
purchase a service for the Government itself,                           held at the Den'aia Convention Center in
                                                                        downtown Anchorage from February 8-11. The
the funding constitutes a procurement
                                                                        fire booth was staffed full-time by the Alaska
“contract.”16                                                           Wildland Fire Coordinating Group’s Prevention
                                                                        and Education Committee. Members of the
The rules for awarding federal “contracts” are                          committee provided fire information materials
very different from the rules for awarding                              from their respective agencies and answered a
federal “grants.” The Federal Acquisition                               wide variety of questions from the public on fire-
Regulation prescribes detailed procedures to                            related topics.
assure that contracts are awarded through
                                                                       “Last year, the interagency fire exhibit at the
competition that protects the public. In                               Alaska Forum on the Environment received visitors
contrast, agencies have considerable discre-                           from 20 agencies and 40 different communities in
tion as to how they select grantees. Federal                           Alaska, the Lower 48, and the Yukon Territory.
law encourages, but does not require,                                  Numerous public and private organizations attend
competition in the award of grants.17                                  the annual Forum.”

                                                                          Source: www.fws.gov/fire/news/ak/fireEducators.shtml
                                                                           (retrieved May 23, 2012)




14
     Denali award no. 1028.
15
     See 31 USC 6304.
16
     See 31 USC 6303.
17
     See 31 USC 6301(3); GAO, Principles of Federal Appropriations Law, 3rd ed., vol. II, pages 10-25 to 10-26.
OIG inspection of payment                                    8                                            June 10, 2012
to Alaska Forum Inc.


GAO is the “booth referee” in resolving
                                                                                       EXHIBIT 6
whether an agency has erroneously labeled a
purchase as a grant.18 And GAO acknowl-                                  FACTORS INDICATIVE OF THE
                                                                     TRANSACTION’S STATUS AS A CONTRACT
edges that “[i]t is often difficult to draw fine
lines between the types of arrangements and
fact situations that require the use of a                        Transaction initiated by Denali’s agency head with no
procurement contract and those that do                           real grant application or RFP process
not.”19
                                                                 No pre-award evaluation of “grantee’s” capacity

In our original inspection of the event over                     Recipient paid by single invoice rather than periodic
three years ago, we did not question the                         submission of OMB Standard Form 270
agency head’s characterization of this
transaction as a form of grant (a “cooperative                   Large payment size compared to Denali’s other
                                                                 “sponsorships” that were true grants
agreement”). OIG conducted that 2009
inspection on its own initiative, and at that                    Recipient paid to modify its existing event rather than
point, we reviewed the use of the funding                        create a new one
rather than the vehicle for awarding it.
                                                                 Scope’s emphasis on Government’s requirements,
                                                                 including Denali’s control over event content and
But during last year’s audit of Denali’s                         right to publicity
financial statements, OIG was surprised to
learn that a dispute over this matter has                        No categorized budget in scope of work
persisted for some years. We have thus
reopened our 2009 inspection and taken a                         Limited performance period (effectively 6 months)
                                                                 atypical of true grants
closer look at the underlying transaction.
                                                                 Single deliverable of the event itself, with no interim
Based upon the factors listed in Exhibit 6,                      progress reports to monitor best efforts
OIG concludes that the main purpose of the
$50,000 payment was to procure a service for                     Denali’s commitment to share its staff
the Government. In other words, the agree-                       Denali’s commitment to contribute its non-monetary
ment operated in legal substance as a federal                    business intangibles (creative talent, customer base,
contract between Denali and Alaska Forum                         intellectual property, branding, publicity)
Inc. (hereafter the “contractor”).
                                                                 Recipient’s pattern of defining its relationship with
                                                                 Government agencies as the “partners”
From a business perspective, this was a
classic joint venture (a partnership for a                       Recipient’s offer to settle Denali’s dispute by sharing
specific project) in which each party brought                    any profit generated by the event
resources to the effort in hopes of mutually
advancing their respective positions. This                       Parties’ behavior as a joint venture in which they
                                                                 hoped to mutually advance their positions by pooling
contrasts to the more obtuse public benefit                      their business resources
from simply subsidizing a “grantee” or from
conditioning a grant on the agency’s continu-
ing involvement (a “cooperative agreement”).

18
     See GAO, Sprint Communications Company, L.P., # B-256586, B-256586.2 (May 9, 1994) at www.gao.gov.
19
     See GAO, Environmental Protection Agency, # B-262110 (March 19, 1987) at www.gao.gov.
OIG inspection of payment                                       9                                               June 10, 2012
to Alaska Forum Inc.



To put it yet another way, both the Govern-
ment’s involvement and its anticipated bene-
fits were too intense to consider the arrange-                                               EXHIBIT 7
ment as a mere “financial assistance award”                                         PERSPECTIVE OF THE
(a grant or cooperative agreement). The fact                                       DEPARTMENT OF ENERGY
that Denali typed the arrangement on a form
for a grant is not determinative.
                                                                       After the 2011 event:

                                                                       “The Alaska Forum on the Environment (AFE), in
Denali’s purpose for the contract was consis-
                                                                       its 13th year, was held February 7 through 11,
tent with federal law.                                                 2011, in Anchorage, Alaska. The AFE is a
                                                                       statewide gathering, with an increasing presence
Complainant-1 wrote of “[b]eing naturally                              of representatives from the continental U.S.,
suspicious of anything with the word                                   environmental professionals from government
‘Environment.’” Complainant-1, who heads a                             agencies, non-profit and for-profit businesses,
trade organization of construction companies,                          community leaders, Alaskan youth, conserva-
is implicitly suggesting that Denali’s funding                         tionists, biologists, and community elders. It was
                                                                       attended by more than 1,200 people.
may offend the appropriation law bans on
spending for “propaganda” and “political                               “The AFE provided an opportunity for state, local,
activity.”                                                             Federal, military, private, and Native leaders and
                                                                       professionals to come together and discuss the
OIG has responded to this complaint by                                 latest projects, processes, and issues that affect
reviewing (1) what Denali attempted to                                 Alaska. Representatives from the U.S. Department
purchase from the contractor and (2) what                              of Energy (DOE), the U.S. Environmental Protec-
was actually provided by the contractor.                               tion Agency, and the U.S. Department of Interior
                                                                       were panelists for the Federal Interagency
Procedurally, OIG reviewed the agreement’s                             Coordination on Environmental Justice Issues
wording, reviewed the published program,                               session. . . “
interviewed key persons, issued an admin-
istrative subpoena for the contractor’s                                       Source: ww.lm.doe.gov/default.aspx?id=7769
                                                                                      (retrieved May 23, 2012)
records20 and, last but not least, made direct
observations during our unannounced physi-
cal inspection21 of the event itself (back when
it occurred in 2009).

OIG concludes that the 2009 event indeed functioned in practice as a “forum” for 19 federal
agencies to market their services and educate stakeholders as to the oversight requirements

20
  OIG has the statutory authority to issue administrative subpoenas to acquire recipient records of Denali’s grants and contracts.
See Inspector General Act sec. 6(a)(4).
21
   On February 4, 2009, OIG (1) reviewed the 68-page program booklet published for the event, (2) reviewed the exhibitors’
displays, and (3) observed a judgmental sample of four of the event’s meetings in which Denali executives had an active role.
At all four of the observed meetings, an executive from Denali either analyzed the agency’s perspective on its “lessons learned”
— or seriously questioned grantees concerning their own. And Denali’s director of programs was personally documenting these
lessons for ultimate publication on the agency’s home page. OIG was, of course, careful to function as a neutral observer, rather
than an active participant, for the purpose of this physical inspection of the event.
OIG inspection of payment                                       10                                              June 10, 2012
to Alaska Forum Inc.


expected in return. And the contractor functioned as a service provider to the Government by
convening, organizing, and promoting the event. This role is consistent with the vision that the
contractor’s executive director (himself a former EPA inspector) articulated to us.

Per GAO rulings on appropriations law,22
federal agencies may spend on activities that                                                 EXHIBIT 8
(1) disseminate information to the public,                                          PERSPECTIVE OF THE
(2) facilitate outreach on agency services,                                        DEPARTMENT OF ENERGY
(3) gather feedback from the public, (4) edu-
cate recipients on oversight requirements, and
(5) explain and defend agency policies.                                 After the 2011 event:

Federal agencies also have the statutory                                “The AFE included a listening session for the
authority to fund the participation by employ-                          Alaska Natives to present to the Federal agencies
                                                                        and specific topics during the break-out sessions.
ees of state, local, and tribal governments in                          Participants in the environmental justice session
training events.23 And the President has issued                         break-out groups included elders and other Tribal
an executive order that directs agencies to                             members from Alaska Native villages, community
pursue enhanced “consultation and coordina-                             members from across Alaska and elsewhere in
tion” with tribal governments.24                                        the U.S. and Canada, and representatives from
                                                                        state, Tribal, and local agencies and
Federal agencies also have the statutory au-                            organizations. Federal agency representatives
                                                                        were present at each table to listen and, as
thority to pursue negotiated rulemaking25 and
                                                                        needed, to facilitate and take notes for each
alternative dispute resolution.26                                       group.”

In the agreement’s scope of work, Denali was                                    Source: ww.lm.doe.gov/default.aspx?id=7769
                                                                                         (retrieved May 23, 2012)
implicitly paying for a platform to further all
of these purposes.

Denali was 10 years old at this point, and the congressional authorization in its enabling act
expired several months before the event took place.27 Denali had a genuine need for a
conversation with stakeholders over the agency’s breakthroughs, limitations, possibilities, and
potential sources of nonfederal funding (such as more grant matching). Denali also had a genuine
need for stakeholders to understand and voluntarily comply with its oversight expectations.



22
     See GAO, Principles of Federal Appropriations Law, 3rd ed., vol. I, chapter 4(C)(11) (updated through March 2012).
23
     See 42 USC 4742, 42 USC 4762.
24
     See Consultation and Coordination With Indian Tribal Governments, Executive Order 13175 (Nov. 6, 2000).
25
     See 5 USC 561.
26
     See 5 USC 572(a); 41 USC 7103(h).
27
     The Denali Commission’s authorization expired on September 30, 2008. See P.L. 108-7, 117 Stat. 158, sec. 504.
OIG inspection of payment                                   11                                                June 10, 2012
to Alaska Forum Inc.


Any reference to a 10-year “anniversary” was a euphemism for the need for a little-known
agency with an uncertain future to explain itself to the public, all amidst skeptical national
realities. Far more Americans were no doubt familiar with the lore of the Iditarod dog race, arctic
truckers, and the alleged bridges to nowhere. In contrast, neither Steven Spielberg28 nor Garrison
Keillor29 is likely to ever tell the story of the little agency that could — or could have been.

OIG can see valid reasons for the 2009 forum that seem consistent with the aims of both
constitutional constraints and construction companies. To the extent that Complainant-1 is
objecting to the subject matter of the funded event as illegal, OIG finds the complaint unfounded.

Denali failed to document its justification for a noncompetitive, sole-source award.

We found no records at Denali that explain why the agency head simply offered the work to one
contractor (Alaska Forum Inc.), rather than attempting some competitive inquiries of other
potential vendors under the FAR’s simplified acquisition procedures.30 This is the most troubling
aspect of this transaction, and OIG recommends some specialized training on this nuance of the
FAR (see Recommendation # 2 on page 25).

Due to recusals by key employees at Denali                                                EXHIBIT 9
(discussed below), the agency head lacked                                      PERSPECTIVE OF THE
technical advice on the arcane nuances that                                DEPARTMENT OF THE INTERIOR
distinguish grants from contracts. Left to his
own devices, he failed to recognize that                           After the 2012 event:
“sponsorships” can trigger procurement
issues.                                                            “In a speech to the Alaska Forum on the
                                                                   Environment today, Department of the Interior
We have thus attempted to reconstruct                              Deputy Secretary David J. Hayes and Deputy
                                                                   Assistant to the President for Energy and Climate
whether the circumstances surrounding the
                                                                   Policy Heather Zichal outlined a series of new
transaction — if they had been properly                            initiatives aimed at bringing the best available
documented — could have supported a sole-                          science to energy-related decisions in the Arctic.
source award. For purchases that do not                            The announcement today underscores the Obama
exceed $150,000, the FAR does indeed                               Administration’s commitment to science-based
allow     noncompetitive   “single source”                         decision-making in the Arctic’s sensitive environ-
purchases when “the contracting officer                            ment.”
determines that the circumstances of the                              Source: www.doi.gov/news/pressreleases/ (Feb. 7, 2012
contract action deem only one source                                          press release), retrieved May 23, 2012
reasonably available.”31

28
   Steven Spielberg’s Amblin Entertainment produced the animated movie Balto (1995) about the 1925 dogsled relay along the
Iditarod Trail to Nome.
29
  See Garrison Keillor, “If only English majors were lobbyists,” Anchorage Daily News, Aug. 22, 2005, page B-4. Keillor gives
his thoughts on Alaska’s plan for bridges.
30
     See FAR subpart 13.1.
31
     See FAR 13.106-1(b)(1) and FAR 2.101.
OIG inspection of payment                                       12                                        June 10, 2012
to Alaska Forum Inc.


At first glance, there would seem to have been other potential providers with a history of
orchestrating large statewide events — events that were both funded by Denali and aimed at the
same constituencies that Denali benefits. For instance, a prior inspector general made the
following observation in a report that discussed Denali’s first five years of “sponsorships:”

            Prior to suspension of sponsorships on March 17, 2005, $749,282 had been
            expended since November 8, 2000 for 85 sponsorships of activities of 72
            non-profit organizations. . .

            Examples of sponsorships made in partnership with other Federal agencies
            included donations to the Alaska Municipal League, Historic Preservation of
            Science and Art, Division of Fire Protection, the Alaska Forum for the
            Environment, the Southeast Conference, and the Kodiak Chamber of
            Commerce. . .

            The largest sponsorships noted were $300,000 in FY 2004 to the Alaska
            Federation of Natives in connection with an Economic Development Forum
            co-sponsored with the Commissions [sic] and $50,000 in FY 2004 to the Alaska
            Municipal League in connection with a local government support center. . .32

And since Denali’s resumption of “sponsorships” in 2006, the agency has made them to
28 organizations for a total of almost $700,000.33 Since 2006, the two largest individual
sponsorships were to the Alaska Center for Rural Health for just under $52,000 and to Alaska
Forum Inc. for the $50,000 that is the subject of this inspection report.34

From this OIG’s closer look at the nature of these 28 more recent (post-2005) recipients, Alaska
Forum Inc. seems to be the only candidate that was neither an interest group representing a
constituency (such as a class of grantees) nor an organization with a focus on a specialized
subject matter. At the time of the payment in question, Alaska Forum Inc. also had a multi-year
track record that demonstrated its capacity to convene a consortium of federal agencies and
1,000+ attendees.

The dominant factor would seem to be the need for a neutral forum, rather than Denali’s mere
inclusion as a guest within an event identified with an interest group that represents a particular
subject matter, grantee constituency, private interest, or policy perspective. Though there is some
private support for the event, the basic business of Alaska Forum Inc. has from the start been to
annually connect government agencies with each other and the stakeholders that they
symbiotically fund and regulate.

32
  Back in 2005, Denali’s agency head contracted with the Appalachian Regional Commission OIG to review a variety of internal
control issues. The quoted excerpts concerning sponsorships appeared on page 20-21 of that report dated July 7, 2005. The
Anchorage Daily News published its July 12, 2005 story headlined as “Investigator details dubious spending: Report on Denali
Commission chief calls for tighter rules.” The entire 57-page report was then published on the newspaper’s website.
33
     Per the project database on Denali’s website at www.denali.gov/dcpdb/.
34
     Per the project database on Denali’s website at www.denali.gov/dcpdb/.
OIG inspection of payment                                        13                                             June 10, 2012
to Alaska Forum Inc.



On the other hand, the Alaska Municipal League (AML) had some history of partnering with the
U.S. Forest Service to host a “Centennial Forum” in Anchorage back in 2004. A press release on
the Forest Service’s website35 described that event as follows:

            Forest Service begins celebrating 100 years by honoring members of local
            communities

            JUNEAU, Alaska - In celebration the [sic], the Alaska Region of the Forest
            Service hosted a regional Centennial Forum, Saturday, Nov. 13, in Anchorage. . .

            Participants at the Alaska Region Centennial Forum included a variety of
            community, conservation, agency, political, scientific, and business leaders from
            across the region. They honored the hard work and dedication of the award
            recipients, celebrated the rich past of the Forest Service, and identified some
            major issues and challenges for national forest management in the 21st Century.

            The Alaska Region of the Forest Service hosted the event with assistance from the
            Alaska Municipal League and the Society of American Foresters. The Alaska
            Forum is one of 12 forums taking place across the nation. The event is part of a
            series of themed events leading up to the National Centennial Congress in
            Washington, D.C., in January 2005. The Forums were designed to bring together
            diverse interests in joint discussions related to the future of the nation's forests.

And AML was certainly familiar with the Alaska Forum’s event for 2009, since six hours of the
latter’s sessions were convened by AML itself on the topics of sustainability and climate change.

Similarly, the Associated General Contractors (AGC)36 had some history with producing an
annual event in Washington, DC that, for 2008, advertised a four-day “neutral forum” for
conversations with 13 federal agencies. The website37 for that event described it as follows:

            The AGC Federal Contractors Conference is a one-of-a-kind event that provides
            AGC contractors and Federal agency personnel the opportunity to meet in a
            neutral forum and review issues occurring around the United States. These
            insightful and highly productive exchanges have solidified the need for both
            Federal construction contractors and the Federal construction agencies to share
            information on a wide variety of issues and foster better communication and real
            solutions.



35
     See www.fs.usda.gov/detail/r10/news-events/?cid=FSBDEV2_038966 (Nov. 23, 2004 press release), retrieved May 23, 2012.
36
     The Associated General Contractors of Alaska (see www.agcak.org) is a chapter of this national organization.
37
     See www.agc.org/galleries/events_brochures/2008%20FEDCON%20-%20Brochure.pdf, retrieved May 23, 2012.
OIG inspection of payment                                  14                                             June 10, 2012
to Alaska Forum Inc.



At this late point, it would be speculation to conclude whether this pre-2009 experience of AML
or AGC would have been sufficiently transferable to compete with Alaska Forum Inc. as the
provider — had those two organizations been interested.

Nevertheless, any disappointed organization had a right to file an appeal with GAO if it felt at
the time that Denali had mislabeled its contract as a “grant” and circumvented the requirement
for a competitive procurement. While GAO is the authoritative “booth referee” for that issue, 38
OIG knows of no organization that has ever claimed that it was displaced as a potential provider
of the 2009 event.

Ironically, in May 2012 Alaska’s three
members in Congress convened their own                                                  EXHIBIT 10
“Alaska Congressional Delegation Grants                                       PERSPECTIVE OF THE
Symposium” in the same venue as the 2009                                  DEPARTMENT OF THE INTERIOR
event by Alaska Forum Inc.

                                                                   After the 2011 event:
Denali’s award of the contract was not tainted
                                                                   “The Director of OEPC [Office of Environmental
by conflicts of interest.                                          Policy and Compliance] attended the Alaska
                                                                   Forum on the Environment in February, 2011. The
However, the underlying root of the com-                           Forum addressed many issues of concern to the
plaints is not found in the legal nuances of                       people of Alaska including climate change and
federal appropriations and procurement.                            climate adaptation. The panels discussed the
Denali’s funding for the 2009 event was                            [environmental justice interagency working group]
higher than most of Denali’s other sponsor-                        and its work, and resources and programs that are
                                                                   available to Alaska. Panel topics also consisted of
ships, and the complainants are concerned
                                                                   Alaska Native village representatives presenting
that the contractor may have benefited from                        on environmental issues of concern to them. EPA
the influence of related parties employed at                       Senior management and other Federal repre-
the agency.                                                        sentatives, including the Department were in the
                                                                   audience to listen. . . . The Department has
OIG understands the complainants’ concerns.                        developed responses to the public to address
The contractor’s executive director is the                         questions and concerns developed during the
spouse of Denali’s CFO. The subcontractor                          2011 Alaska Forum and have made them available
                                                                   at: http://www.doi.gov/oepc/justice.html . . .
that designed the event’s program publication
is the spouse of Denali’s (now former) chief                       “The Department anticipates participation in the
operating officer. One of Denali’s two                             2012 Alaska Forum on the Environment. . .”
accountants now works part-time as the
                                                                       Source: www.doi.gov/pmb/oepc/upload/Final-Annual-
event’s bookkeeper (though not in 2009).                                   Implementation-Progress-Report-3-27-12.pdf
                                                                            (pages 10-11, 27), retrieved May 23, 2012.
The complainants also understandably note
the barrage of ethics guidance that Denali has
for years pursued from such federal regulators

38
     See GAO, Sprint Communications Company, L.P., # B-256586, B-256586.2 (May 9, 1994) at www.gao.gov.
OIG inspection of payment                                     15                                             June 10, 2012
to Alaska Forum Inc.


as the Office of Government Ethics, GAO, the Department of Justice, and the designated agency
ethics official.39 These authoritative sources have proactively cautioned grantees and stake-
holders about the evils of funding abuse and conflicts of interest. And the complainants
obviously expect Denali’s own employees to respect the same rules that outsiders must obey.

Under the federal ethics regulations, each agency has a “designated agency ethics official”
(DAEO) who collaborates with the U.S. Office of Government Ethics in policing the agency’s
compliance. The DAEOs function as the federal system’s “booth referees” in addressing
disclosures, interpretations, prevention, and violations.

OIG has verified40 that all three Denali employees disclosed the planned relationships to the
DAEO and obtained the safe harbor of his guidance.41 OIG has found no evidence that any of
them attempted to influence the agency’s decisions concerning its payment to the contractor. 42
Nor did OIG find any evidence that the contractor gained access to insider information. 43
All three employees were effectively recused, isolated, and “quarantined” (also known as a
“screen” or “firewall” in the business world).44

In other words, this is not new material. The DAEO proactively addressed each employee’s
situation under the federal ethics regulations, and there is no indication that they did not fully
respect his interpretation of what the law required of them.

In the complainants’ capacity as interest group leaders and private citizens, they certainly have
the right to grouse about the booth referee’s calls. In contrast, federal employees act under the
peril of discipline if they disregard an authoritative ruling that displeases them and then continue
to complain of a violation determined not to exist.45

In a larger agency, such disclosure, recusal and quarantine would be the end of the matter.
In fact, in some cases the shared bookkeeper scenario could arguably be structured as the detail
of a federal employee for “technical assistance,” or training to enhance recipient reporting skills,
under the Intergovernmental Personnel Act.46

39
     For example, see GAO, Denali Commission — Anti-Lobbying Restrictions, # B-317821 (June 30, 2009) at www.gao.gov.
40
     OIG interviews with the DAEO on February 27, 2012 and May 31, 2012.
41
     See 5 CFR 2635.402, 5 CFR 2635.502, 5 CFR 2635.802.
42
     See 5 CFR 2635.702, 5 CFR 2635.501-502.
43
     See 5 CFR 2635.703.
44
     See 5 CFR 2635.402, 5 CFR 2635.502.
45
  See Bieber v. Dept. of the Army, 287 F.3d 1358 (Fed. Cir. 2002); Oliver v. Dept. of Health and Human Services, 34 MSPR 465
(1987); Barnes v. Dept. of the Army, 22 MSPR 243 (1984); Bonanova v. Dept. of Education, 49 MSPR 294 (1991); Roach v.
Dept. of Defense, no. 06-3241 (Fed. Cir., Dec. 7, 2006).
46
  The Intergovernmental Personnel Act allows federal agencies to detail their employees to state, tribal, nonprofit, university,
and local governmental entities. See 5 USC 3371-3373.
OIG inspection of payment                       16                                  June 10, 2012
to Alaska Forum Inc.


But at tiny Denali (˂ 30 employees), isolating the potential conflicts of interest had the
unintended side effect of isolating the agency head from the procurement expertise he needed to
correctly structure the transaction.

By analogy, it’s not enough for an impaired pilot to leave the flight deck. The airline still needs
to arrange a substitute crew who can keep flying the airplane.


The contractor performed as required by the original contract.

OIG found few records of this transaction at Denali. We were able to supplement this with the
limited records that we obtained from the contractor under our administrative subpoena.
We were able to further supplement these documents with some oral memories by the two entity
heads who structured the transaction at the time it was entered.

Based upon this evidence and reasonable inferences, the following is OIG’s reconstruction of the
services that contractor was expected to perform for the Government.

                                    1. The overall event itself

First, the contractor was expected to provide the consortium of federal agencies with the overall
2009 “Forum” event. That event was identified with little detail in Denali’s agreement, leaving
OIG to conclude that it was defined by the parties’ past customs, or “course of dealing,” to be the
same type of annual event that the contractor had previously convened over the years of Denali’s
lifespan.

While Denali wrote the agreement, the agency left the contractor with considerable discretion as
to what was offered at the event. Based on OIG’s personal observations and the scope of the
published program (see Exhibit 4 on page 6), we conclude that the contractor met the Govern-
ment’s expectations for this aspect of the agreement.

                      2. Event’s physical venue and audio-visual equipment

Second, the contractor was expected to apply Denali’s $50,000 payment toward the event’s
physical venue (“event space”) and its associated audio-visual equipment. OIG’s review of the
subpoenaed records shows that the contractor incurred expenses in excess of $50,000 for these
purposes.

The contractor rented the two downtown convention facilities owned by the city government,
and arranged audio-visual support by two vendors. This physical presence was confirmed by
OIG’s personal observations and the published program showing the locations for the 150+
sessions (see the Appendix). The event had the run of the two facilities for the five days. To the
extent that Denali wanted out at a point two weeks before the event, OIG finds that the many
meeting spaces were fungible, commingled, and not divisible among the participating agencies.
OIG inspection of payment                                        17                 June 10, 2012
to Alaska Forum Inc.


                                              3. Event’s program publication

Third, the contractor was expected to apply Denali’s $50,000 toward the design and printing of
the 68-page program publication. OIG reviewed invoices for over $8,500 that went for this
purpose. This is a critical feature of meaningful attendance at 150+ sessions in two large
buildings. And when OIG obtained a copy at the event itself, we noted the modest format of the
publication: a stapled booklet with plain “down-to-business” descriptions of the sessions, rather
than anything glossy, polished, or self-laudatory. It was a basic stapled booklet to get attendees
to the right rooms — not a colorful magazine or a bound keepsake.

                                                4. Agency’s right to publicity

Fourth, the contractor was expected to support Denali’s right to publicity:

            “[T] he Commission shall receive recognition for its sponsorship in the form or
            [sic] banners, fliers, program announcements and all media and press coverage
            related to the event. The Commission shall also receive 4 waived registration
            slots and a booth space, which shall be staffed during the conference by
            Commission employees.47

OIG heard no claim by Denali that the contractor denied the agency any of the requested
publicity. The program publication acknowledges Denali as a “leadership partner.” Denali had its
information booth as requested. The four “waived registration slots” had a value of $2,100 in
themselves ($525 each), which the unilateral amendment increased to a total of “30 comp
conference registrations” (total value of $15,750).

                                                5. Agency’s creative control

Fifth, the contractor was expected to cede the right to creative control over a certain loosely-
defined portion of the event — to the extent Denali chose to exercise this right. At the last
minute, Denali attempted to assert that the contract was divisible and that it was entitled to
enforce a unilateral price reduction for portions of this right not exercised.

However, OIG finds this argument moot because Denali did in fact take and receive what was
originally promised — despite its unsuccessful eleventh-hour spin that it had extracted itself by
unilaterally reducing the contract price.

On the event’s second day (February 3), Denali’s agency head served for the afternoon as a
presenter on a climate change panel.

On the event’s third day (February 4), Denali’s agency head had the floor for the morning. He
started by delivering the 8 a.m. keynote address, then moderated two panels on rural
infrastructure, and finally did the introduction for the next keynote speaker at noon — the

47
     Excerpt from award condition #1 in the original contract.
OIG inspection of payment                                      18                                              June 10, 2012
to Alaska Forum Inc.


university president who by statute serves as a member of Denali’s board. After that lunch
address, Denali’s chief operating officer moderated a panel until 3:15 pm.

On the event’s fourth day (February 5), Denali’s chief operating officer served as a presenter on
a panel that discussed the future of arctic development.

Thus, over the course of February 3-5, the public got the day of Denali — including the “plenary
presentation” — that was envisioned in the original contract.

We also note that Denali’s information booth was staffed by its employees throughout the event.
And, last but not least, OIG’s analysis of the program’s content shows another 31 sessions that
seem directly related to specific issues faced by Denali (including some found in OIG’s reports
to the agency head48).

Denali wrote the agreement’s nebulous scope of work, with much of its specifics apparently left
to the trust and tradition established over past editions of the event. To the extent that Denali now
claims nonperformance of some expected detail back in 2009, the contractor would arguably
have a defense of “commercial frustration” in the legal parlance of contracting.49


Denali did not pay for a party.

Complainant-2 heads a trade organization of grant recipients and asserts that Denali’s funding
was aimed at a social event, celebration, or party. Complainant-2 is thus implicitly suggesting
that Denali’s funding may offend the appropriation law bans on spending for refreshments,
entertainment, and unsanctioned “reception and representation” expenses.

To begin with, we note that the 150+ sessions in the published agenda (see the Appendix)
emphasize government information that most people would not consider “entertainment.”
Beyond this, the original agreement explicitly warns that “Commission funds cannot be used for
food or beverage of any kind, gifts, per diem of attendees, or wages/salaries.”

The agreement required that publicity acknowledge 2009 as Denali’s tenth year of experience in
addressing Alaskan problems. The agreement’s passing reference to Denali’s “anniversary” did
not convert this event of legitimate training into a “celebration” or “party.”

On the other hand, the agreement’s scope of work explicitly included spending for event space,
audio-visual equipment, and the program publication. OIG’s review of the subpoenaed records
confirmed that the contractor’s spending on these permissible items exceeded the $50,000
received from Denali.

48
   Examples from OIG’s reports would be the numerous challenges of funding facilities in small, remote settlements — such as
serviceable size (population), facility staffing, local match, out-migration, post-completion support, and remediation of replaced
structures (brownfields). OIG’s reports are published online at www.denali-oig.org.
49
     See Division of Agriculture Loan Fund v. Carpenter, 869 P.2d 1181, 1184 n. 1 (Alaska 1994).
OIG inspection of payment                                          19                                               June 10, 2012
to Alaska Forum Inc.



Nevertheless, the contractor was certainly free to fund the non-Denali items (such as food) from
other sources to the extent permitted by law. The many individuals attending the event paid a
registration fee of $525 each. There were some nonfederal entities that contributed to the cost of
the event. The other federal agencies may have had specialized appropriations that more broadly
support such events,50 or they may have utilized the appropriation law exceptions for training
activities that allow some items Denali simply chose not to fund.51

In short, we find the objection by Complainant-2 to be unfounded.


Denali’s unilateral price reduction functioned as a partial termination for convenience.

On August 28, 2008, Denali’s agency head signed an agreement to provide $50,000 to the
contractor in connection with its event to be held February 2-6, 2009. Though typed on a form
for a “financial assistance award,” the scope of work detailed a variety of services intended to
directly benefit the Government. In Exhibit 6 (page 8), we note the factors that gave this agree-
ment the legal status of a federal contract.

The contractor then sent Denali an invoice billing the agency for the full $50,000. On September
8, 2008, three Denali staffers promptly approved the invoice for payment in full. This was at a
point just slightly less than five months before the event was scheduled to start.

                                             Nature of the Government’s claim

On January 20, 2009, the agency head signed a unilateral amendment of the agreement that
reduced the amount to $30,000, reduced the extent of Denali’s participation, and increased the
number of Denali’s registration passes from 4 to 30 (the latter representing approximately a
$13,000 change in itself). These unilateral changes were at a point two weeks before the event
was scheduled to start.

Since Denali’s records include no documentation to support the amendment, OIG has attempted
to reconstruct the surrounding circumstances through interviews of the contractor’s officers and
Denali’s former agency head.

At some point in December 2008 or January 2009, the agency head contacted the contractor and
indicated that a Member of Congress was questioning the payment. The agency head felt that he
needed to respond to this constituent casework by changing the original agreement and
recovering the money paid. Memories of those interviewed vary as to whether the agency head
sought to cancel all, or only part, of the agreement and as to whether he sought to recover all,
or only part, of the $50,000.

50
  See 10 USC 2262; GAO, National Institutes of Health—Food at Government-Sponsored Conferences, # B-300826 (March 3,
2005) at www.gao.gov; GAO, Principles of Federal Appropriations Law, 3rd ed., vol. I, sections 4(C)(2), 4(C)(5)(f).
51
     See GAO, Principles of Federal Appropriations Law, 3rd ed., vol. I, sec. 4(C)(5)(b)(2), vol. III, sec. 12(B)(3).
OIG inspection of payment                                   20                                            June 10, 2012
to Alaska Forum Inc.



But the contractor responded that the money had already been spent. It offered to share $20,000
of the event’s profits with Denali — if the event turned out to be successful (a contingency and
an unknown). The instant dispute developed when the contractor later asserted that it had instead
suffered a loss and resisted repayment.

Complainant-2 periodically urges Denali’s current agency head to revisit the matter, and to take
more aggressive action to collect the amendment’s $20,000 as a debt due the Government.

                                           Legal substance of the
                                    Government’s unilateral price reduction

In legal substance, the agency head’s unilateral modification functioned as a partial “termination
for convenience” of a federal contract. Such terminations by the Government are permissible
under the Federal Acquisition Regulation (FAR),52 provided that a fair settlement is arranged for
the losses incurred by the contractor. FAR 49.201(a) provides:

         A settlement should compensate the contractor fairly for the work done and the
         preparations made for the terminated portions of the contract, including a
         reasonable allowance for profit. Fair compensation is a matter of judgment and
         cannot be measured exactly. In a given case, various methods may be equally
         appropriate for arriving at fair compensation. The use of business judgment, as
         distinguished from strict accounting principles, is the heart of a settlement.

Similarly, FAR 49.208 provides that a contractor who faces a partial termination by the Govern-
ment “may request an equitable adjustment in the price or prices of the continued portion of a
fixed-price contract. . .”

When the Government attempts to change its mind two weeks before the event begins, a serious
question exists as to how much of $20,000, if any, the Government is still entitled to recoup.
Even beyond the contractor’s asserted reliance in retaining subcontractors and vendors, Denali’s
six-fold increase in “comp. conference registrations” represented a significant change in the
pricing structure (26 more passes @ $525 each = $13,650). Arguably, only the difference
between $20,000 and $13,650 should be the amount truly at issue, that is, $6,350.

OIG concludes that a fair resolution under FAR 49.201(a) and FAR 49.208 would be for the
contractor to retain the $20,000 at issue. There is a point where the Government tries to escape
“for convenience” too late in the game — and this was it. The $6,350 would seem to represent a
conservative estimate of the contractor’s loss from commitments that couldn’t be reversed at the
eleventh hour. And the contractor would seem entitled to compensation for Denali’s unilateral
self-help to an extra 26 registration passes (whether actually used or not).



52
  Every federal contract is deemed to include an implied clause allowing the Government to “terminate for convenience” if no
explicit clause has been included. See G.L. Christian & Assocs. v. United States, 312 F.2d 418, 160 Ct. Cl. 1 (1963).
OIG inspection of payment                                     21                                              June 10, 2012
to Alaska Forum Inc.




While OIG finds insufficient cause for the contractor to repay $20,000 (or the full $50,000),
we are quick to recognize that our opinion is just our opinion. The “primary jurisdiction” to
authoritatively decide the matter lies with the contracting officer53 (who has not ruled so far),
the Civilian Board of Contract Appeals,54 and the Court of Federal Claims.55

Ironically, the standard faced by Denali would be even tougher had its arrangement with Alaska
Forum Inc. constituted a mere “grant.” The applicable OMB rules for grants do not allow the
Government to terminate a grant for convenience. Once an agency has “obligated” itself to make
a grant, any unilateral changes by the Government require a finding that “a recipient materially
fails to comply with the terms and conditions of an award.”56 To put it another way, unilateral
cancellation of an “obligated” grant presents an issue of liability under federal law unless the
grantee has done something wrong.57

Beyond this, the “financial assistance award” itself58 provides that the Government will not
unilaterally terminate the agreement unless a recipient who is “not in compliance with the terms
and conditions” is first given a chance to cure the defect through a corrective action plan. Since
the Government wrote the agreement, OIG assumes that it meant what it said.59

                                              Nature of the contractor’s claim

While Denali has persisted in its attempts to collect its perceived overpayment of $20,000,
the contractor has responded at two points with claims that allege consequential damages of
$60,000 to $100,000+ from Denali’s untimely reneging:



53
     See 41 USC 7103.
54
     See 41 USC 7105(e)(1)(B).
55
     See 41 USC 7104(b)(1).
56
     See 2 CFR 215.61(a)(1).
57
 See Lynch v. United States, 292 U.S. 571 (1934); San Juan City College v. United States, 391 F.3d 1357 (Fed. Cir. 2004);
GAO, Denali Commission—Overobligation of Apportionment, # B-316372 (October 21, 2008) at www.gao.gov.
58
     Award condition # 9 in the original contract.
59
   In contrast, OIG’s recent inspection report for Denali grant # 1315 found no breach of an obligation when the agency head
unilaterally reduced the amount of the award by an even greater percentage. The critical difference, though, was our conclusion
that
        in grant # 1315, Denali did not breach a promise to the [grantee]. For three reasons, OIG finds that the unused
        $980,294 never materialized as a legally-binding “obligation” under federal appropriations law. It legally did not
        advance beyond the pre-obligation planning stage known in federal budgetary parlance as a non-binding
        “commitment.”
See Denali OIG, Inspection of $1 million grant # 1315 to State of Alaska for Village Resume Project (Feb. 9, 2012), pages 3 to 5,
at www.denali-oig.org.
OIG inspection of payment                                  22                           June 10, 2012
to Alaska Forum Inc.



            Excerpt from Letter 1:

            While we had every hope of working this out cooperatively, our event sustained a
            $60,000 shortfall due to our substantially increased expenses and unrealized
            benefit from the intended partnership with the Denali Commission. . .60

            Excerpt from Letter 2:

            The Commission, having backed out of their participation commitments, left our
            organization saddled with over $104,000 in actual debt associated with the
            increased venue space, supporting equipment and contracted services. . . The
            Commission’s request for reimbursement for funds we had expended prior to final
            amendment is appalling, given that our organization suffered fixed losses in
            excess of $104,000. . . It has taken our organization over two years to financially
            recover from the Commission’s failure to fulfill their component of the Agree-
            ment. . .61

Each of these two letters would clearly seem to constitute a pending “claim,” which FAR 2.101
defines as follows:

            Claim means a written demand or written assertion by one of the contracting
            parties seeking, as a matter of right, the payment of money in a sum certain, the
            adjustment or interpretation of contract terms, or other relief arising under or
            relating to the contract. . .

In Letter 2, the contractor further asserts that Denali’s participation was expected to increase the
event’s attendance by another 500 persons and another 45 exhibitors. The contractor asserts that
neither number increased due to Denali’s failure to cooperate.

In OIG’s interview, the contractor asserted an even greater loss of over $200,000 from the
disappointing attendance of 500 persons less than expected.

Denali has so far not responded to these contractor claims for consequential damages.

Despite these protests that want more than the original $50,000, FAR 49.207 would at first
glance seem to cap the contractor’s damages at the full contract price that would have been paid
in the absence of the Government’s termination.

However, the theme of the contractor’s claim letters is that it was relying on Denali to do more
than just add money. The contractor is arguing that Denali agreed to function as an active partner


60
     Contractor’s letter to Denali, dated Jan. 29, 2010.
61
     Contractor’s letter to Denali, dated Aug. 8, 2011.
OIG inspection of payment                                         23                                               June 10, 2012
to Alaska Forum Inc.


rather than a silent one — active to the point of being an actual co-promoter and designer of the
event as a form of joint venture.

The contractor apparently finds these assumptions in the following paragraph of the original
agreement:
            In addition to the conference sponsorship the Commission agrees to provide a
            staff member to participate in the Conference Planning events and on the
            Conference planning committee. Additionally, the Commission shall develop
            thematic presentations and sessions for the conference and shall ensure that
            Commission staff and other program partners and stakeholders participate in the
            conference and are featured as presenters, panelists, and/or moderators for the
            Commission tracks.62

Since the Government wrote the agreement, OIG will interpret it from the reasonable expecta-
tions of the contractor. Dissecting the above paragraph, Denali seems expected to supply “sweat
equity” in terms of (1) a Denali employee detailed to the event’s preparation, (2) creative work-
product (designing “thematic presentations and sessions” and “tracks”), (3) a promise (“shall
ensure that”) to successfully negotiate speaking talent from Commission staff, “program
partners” (major grantees), and “stakeholders” (subgrantees), and (4) a promise (again, “shall
ensure that”) to arrange for Denali’s equivalent of a customer base (program partners, stake-
holders) to come to the event in the first place.

Based on the claim letters and OIG’s interviews, the contractor is asserting that Denali defaulted
in its promises to contribute business intangibles beyond the payment of money: subject-matter
expertise, intellectual property, influence with the equivalent of a customer base (partners,
stakeholders), “celebrity” contacts, and prestigious “branding” for the event (strong identification
akin to an endorsement). The contractor hoped that these intangibles would boost attendance to
new levels and enhance the event’s ability to attract high-ranking Beltway talent.

The contractor’s claims thus suggest that the promised intangibles were just as important as the
$50,000 payment that went for the tangible items (space, equipment, printing). The contractor
asserts that these shortcomings on the intangibles deprived it of the benefit of its bargain for
increased attendance.

OIG has so far been sympathetic with the contractor’s frustrations over the last-minute partial
termination for convenience. However, OIG finds the claim of a $60,000 to $104,000 loss (or
more) from disappointing attendance to be speculative as to both amount and cause. In fact,
during OIG’s interview of the contractor, it disclosed a significant casualty loss that was under
the contractor’s control with no connection to Denali.63

62
     Excerpt from award condition # 1 in the original contract.
63
   In the contractor’s records obtained through OIG’s administrative subpoena, OIG notes that contractor paid over $4,500 for
insurance coverage. OIG has not attempted to evaluate whether this insurance might have covered the asserted casualty — and
thus offered the contractor the potential to mitigate its losses. The type of casualty alleged is one that nonprofits frequently insure
against.
OIG inspection of payment                                       24                                              June 10, 2012
to Alaska Forum Inc.



But, again, OIG’s opinion on this claim is just our opinion. Authoritative resolution of such a
claim for consequential damages against the Government would lie within the province of the
Civilian Board of Contract Appeals64 or the Court of Federal Claims.65

To the extent that the contractor considers any third parties responsible for its losses,
the contractor can review with its legal counsel the potential remedies available under Alaska
law. For instance, state law recognizes the potential for recovery for “tortious interference with a
contract.”66 And the Alaska Supreme Court has stated:

               We have long recognized the tort of intentional interference with prospective
            economic advantage. . . “[u]nder this theory, a person who is involved in an
            economic relationship with another, or who is pursuing reasonable and legitimate
            prospects of entering such a relationship, is protected from a third person’s
            wrongful conduct which is intended to disrupt the relationship. [citations
            omitted]”67

It is, of course, not the role of OIG to speculate on the existence of relevant third parties (if any)
or their legal culpability (if any).


                                                     RECOMMENDATIONS


1. The disputants should attempt to restore their working relationship by participating in the
   mediation offered by the Federal Mediation and Conciliation Service.

OIG’s inspection has reviewed Denali’s compliance with the applicable laws and agreements.
While our report details our conclusions, it does not repair the following aspects of the troubled
working relationship:

● Denali and the contractor need an authoritative, binding resolution as to whether the
  Government is owed $50,000, $20,000, or nothing.

● Denali and the contractor need an authoritative, binding resolution as to whether the
  Government owes the contractor consequential damages.


64
     See 41 USC 7105(e)(1)(B).
65
     See 41 USC 7104(b)(1).
66
     See K & K Recycling v. Alaska Gold Co., 80 P.3d 702, 717 (Alaska 2003).
67
     Alaska Marine Pilots v. Hendsch, 950 P.2d 98 (Alaska 1997), quoting Ellis v. City of Valdez, 686 P.2d 700, 706 (Alaska 1984).
OIG inspection of payment                                         25                                         June 10, 2012
to Alaska Forum Inc.


● Denali and the contractor need to define a constructive relationship for any future projects,
  including the potential resumption of Denali’s full participation in the consortium that
  continues to convene the annual training event.

OIG has conferred with the respected Federal Mediation and Conciliation Service,68 who has
agreed at OIG’s request to offer the parties a neutral mediation of these persistent issues. This is
an appropriate use of OIG resources under the Inspector General Act,69 and OIG hopes the
mediation will assist the disputants in transitioning to a productive working relationship. Both
the contractor and Denali’s agency head have agreed to participate in such a mediation.


2. Denali’s agency head should request pertinent training from GAO.

Denali’s agency head should request training from GAO that will enable him to document
defensible choices as to whether a grant, cooperative agreement, procurement, or interagency
transfer70 is the appropriate instrument. For procurements, this should include training on the
documentation of any single-source selections.

We understand that the agency head intends to transition from the past form of “sponsorships”
— which primarily assist the recipients — to more focused events that primarily benefit Denali
in assessing the public impact of its programs. To the extent that these future events will be
treated as contracts, the FAR’s procedures for resolving disputes will hopefully moot the burden
on Members of Congress to intervene through constituent casework.

Denali has benefited from GAO training on appropriations law and OMB training on grants law.
Denali may wish to continue its past practice of including other federal agencies in the local
training that Denali arranges from Beltway authorities.


3. Denali’s agency head should strengthen controls over the event’s federal funding.

OMB requires increased oversight and justification for the federal funding of group events.71
To the extent that Denali decides to contribute to future editions of the event in question,
OIG recommends two specific improvements to proactively preserve public confidence.

First, Denali’s agency head should coordinate the part-time detail of a federal employee to
maintain the event’s accounting records. Such a detail to a nonprofit organization is permissible

68
     See www.fmcs.gov.
69
     See Inspector General Act sections 4(a)(4), 6(a)(9), 8G(g)(2).
70
     An agreement under the Economy Act in which one federal agency performs services for another federal agency.
71
  See OMB Memorandum M-12-12, Promoting Efficient Spending to Support Agency Operations (May 11, 2012); OMB
Memorandum M-11-35, Eliminating Excess Conference Spending and Promoting Efficiency in Government (Sept. 21, 2011).
OIG inspection of payment                                       26                                               June 10, 2012
to Alaska Forum Inc.


under the Intergovernmental Personnel Act72 and can be periodically rotated among the parties to
the statement of cooperation. The event’s records must be kept with sufficient sophistication to
clearly trace public and private funding to the respective expenses that each treats as acceptable
under differing rules.

Second, Denali’s agency head should encourage the consortium of federal agencies to condition
their funding of this event on an annual program audit of the contractor’s (1) financial state-
ments, (2) sources and use of federal funds, (3) accounting procedures, and (4) representations
on IRS Form 990.73

OIG found no record of any prior audits for this contractor in the online database of the Federal
Audit Clearinghouse,74 presumably because the contractor’s annual federal assistance has never
reached the $500,000 “single audit” threshold. Nevertheless, the consortium of federal agencies
can still proactively require a “program audit” as a condition of funding. Most of the consortium
agencies are under the oversight of a large Office of Inspector General with considerable staff,75
whose services for this audit could be periodically rotated under the statement of cooperation.




                                                                       MIKE MARSH, CPA, MPA, CFE, ESQ.

                                                                                 INSPECTOR GENERAL
                                                                                 DENALI COMMISSION




72
  The Intergovernmental Personnel Act allows federal agencies to detail their employees to state, tribal, nonprofit, university,
and local governmental entities. See 5 USC 3371-3373.
73
   On the other hand, Denali’s agency head may wish to seek an IRS letter ruling as to whether the contractor is required to file a
Form 990 tax return. See Revenue Procedure 2012-4, 2012-1 I.R.B. 125 (Jan. 12, 2012). Much of the form is related to the
nonprofit’s organizational structure and accounting controls, rather than the actual reporting of taxes. Preparation of such a return
is thus quite labor intensive, and the IRS could potentially consider the contractor to be performing an “essential government
function” similar to a government franchise fund. See 26 USC 115.
74
     See http://harvester.census.gov/sac/.
75
     See Inspector General Act sec. 12(2).
OIG inspection of payment                27                                 June 10, 2012
to Alaska Forum Inc.




                                  APPENDIX




                  The following are excerpted pages 57-64 and 67-68
             from the program publication for the 2009 Alaska Forum event
 Arctic Issues                                                           Clean Up & Remediation (continued)




                                                                                                                                                Subject
                                                                                                                                                Agenda by
 Monday, February 2                                                      Tuesday, February 3
 3:30 p.m. - 4:45 p.m.                                                   9:30 a.m. - 10:30 a.m.
 r 	 Arctic Transportation: Central Hubs and Future Infrastructure       r 	 Responses to Hazard Discovery E/Space 4
 	 E/Space 2                                                             10:45 a.m. - 11:45 a.m.
                                                                         r 	 Contaminated Sites: Cleanup, Closure, and Finding Out More
 Tuesday, February 3                                                     	 E/Space 1
 10:45 a.m. - 11:45 a.m.
 r Arctic Marine Ecosystem Changes E/Space 13&14                         Wednesday, February 4
 r	The Status and Trends of Ice Seals in Alaska E/Space 11&12            10:30 a.m. - 11:45 a.m.
 r	Program Review of ConocoPhillips North Slope Environmental            r	 Survey of Environmental Crimes in Alaska E/Space 1
 	 Studies E/Space 2                                                     10:45 a.m. - 11:45 a.m.
 2:00 p.m. - 3:15 p.m.                                                   r 	 Guidance on Investigating Vapor Intrusion at Contaminated Sites
 r	Walrus and Polar Bear – What Next? (Part 1 of 2) E/Space 2            	 E/Space 3
 3:30 p.m. - 4:45 p.m.                                                   2 p.m. - 3:15 p.m.
 r 	 Future Cruise Ship Tourism and Potential Impacts on Rural Alaska    r 	 The Impact of Dump Site Contaminants on Rural Populations:
 	 E/Space 11&12                                                         	 What is Known and Not Known E/Space 13&14
 r	Walrus and Polar Bear – What Next? (Part 2 of 2) E/Space 2            r 	 Community Solutions to Backhauling Old Tank Farms E/Space 3
                                                                         r 	 In-Situ Treatment for Cholrinated Organics E/Space 6
 Wednesday, February 4                                                   3:30 p.m. - 4:45 p.m.
 9:30 a.m. - 10:30 a.m.                                                  r 	 Amchitka Island Nuclear Test Site Monitoring Program Update
 r 	 Maritime Operations in the Arctic E/Space 7&8                       	 E/Space 13&14
 r	Unlocking Heavy Oil Reserves in Alaska’s North Slope                  r 	 Treatment of PCBs and Other Recalcitrant Organic Compounds
 	 E/Space 11&12                                                         	 E/Space 6
 10:45 a.m. - 11:45 a.m.
 r 	 Erosion Impacts on Alaskan Communities E/Space 7&8                  Thursday, February 5
 2 p.m. - 3:15 p.m.                                                      9:30 a.m. - 10:30 a.m.
 r 	 Trends in Arctic Mining: Assessing Data for Monitoring Social       r 	 Military Munitions Response Program: Program Overview - State
 	 Indicators E/Space 7&8                                                	 of Alaska Perspective (Part 1 of 2) E/Space 4
 3:30 p.m. - 4:45 p.m.                                                   r	 Fate and Transport of Petroleum Spills in Arctic Soils and Gravel
 r 	 Arctic Port and Shipping Infrastructure E/Space 7&8                 	 Pads E/Space 11&12
                                                                         10:45 a.m. - 11:45 a.m.
 Thursday, February 5                                                    r 	 Military Munitions Response Program: Program Overview - State
 9:30 a.m. - 10:30 a.m.                                                  	 of Alaska Perspective (Part 2 of 2) E/Space 4
 r 	 Arctic Oil Spill Response E/Space 2                                 r 	 Using the Ultra-Violet Optical Screening Tool System Technology
 r 	 Fate and Transport of Petroleum Spills in Arctic Soils and Gravel   	 for Rapid Field Screening of Petroleum Contamination in Soil
 	 Pads E/Space 11&12                                                    	 E/Space 11&12
 10:45 a.m. - 11:45 a.m.                                                 2 p.m. - 3:15 p.m.
 r 	 Arctic Development: A Future Vision and A Way Forward               r 	 Federal Facility Remediation Roundtable: Open Discussion on
 	 E/Space 2                                                             	 Remedial Cleanup Projects (Part 1 of 2) E/Space 4
                                                                         r 	 Multi-Incremental Soil Sampling: When or When Not to Use It
 Clean Up & Remediation                                                  	 E/Space 11&12
                                                                         3:30 p.m. - 4:45 p.m.
 Monday, February 2                                                      r 	 Federal Facility Remediation Roundtable: Open Discussion on
 10:30 a.m. - 11:45 a.m.                                                 	 Remedial Cleanup Projects (Part 1 of 2) E/Space 4
 r 	 Brownfields: Federal Resources for Addressing Contaminated
 	 Sites E/Space 13&14
 2 p.m. - 3:15 p.m.
 r 	 Alaska’s Brownfields Program and Current Projects
 	 E/Space 13&14
 r Fort Richardson Environmental Restoration: Case Study of the
 	 Military Effort to Bring Back Waterfowl and Other Wildlife
 	 E/Space 4
 3:30 p.m. - 4:45 p.m.
 r 	 Tribal Brownfields Grant Programs in Alaska E/Space 13&14
 r 	 Federal Restoration Status: Progress and Challenges of Federal
 	 Facility Environmental Restoration Efforts E/Space 4



Alaska Forum on the Environment • February 2-6, 2009		                                              Paper is 100% post consumer recycled               57
              Climate Change                                                         CONTAMINANTS & HUMAN HEALTH
 Agenda by
    Subject
              Monday, February 2                                                     Monday, February 2
              10:30 a.m. - 11:45 a.m.                                                3:30 p.m. - 4:45 p.m.
              r 	 Climate Change in Alaska: Recent Developments                      r 	Using Health Assessments to Understand Contaminant Impacts in
              	 E/Arteaga Room                                                       	 Your Community E/Cook Room
              2 p.m. - 3:15 p.m.
              r 	 Climate Change in Alaska: Reducing Emissions in the Energy         Tuesday, February 3
              	 Supply and Demand Sector E/Arteaga Room                              2 p.m. - 3:15 p.m.
              3:30 p.m. - 4:45 p.m.                                                  r 	Children Run Better Unleaded E/Space 13&14
              r 	 Climate Change in Alaska: Mitigating Impacts from the Oil and
              	 Gas Industry E/Arteaga Room                                          Wednesday, February 4
                                                                                     9:30 a.m. - 10:30 a.m.
              Tuesday, February 3                                                    r 	 Contaminant Research in Alaskan subsistence species and
              9:30 a.m. - 10:30 a.m.                                                 	 Coastal Waters E/LaPerouse Room
              r 	 Climate Change in Alaska: Reducing Emissions in the                10:45 a.m. - 11:45 a.m.
              	 Transportation & Land Use Sector E/Arteaga Room                      r 	 Community Focused Contaminant Monitoring Projects
              10:45 a.m. - 11:45 a.m.                                                	 E/LaPerouse Room
              r 	 Climate Change in Alaska: Reducing Emissions from Forestry,        r	 The Role of Tribal Community and Academic Partnerships in
              	 Agriculture, and Waste E/Arteaga Room                                	 Investigating Environmental Health Concerns in Alaska
              2 p.m. - 3:15 p.m.                                                     	 E/Space 11&12
              r 	 Climate Change in Alaska: Building Resiliency into our Future      2 p.m. - 3:15 p.m.
              	 (Part 1 of 2) E/Arteaga Room                                         r 	 Research and Monitoring of Contaminants in our National Parks
              3:30 p.m. - 4:45 p.m.                                                  	 E/LaPerouse Room
              r 	 Climate Change in Alaska: Building Resiliency into our Future      r	 The Impact of Dump Site Contaminants on Rural Populations:
              	 (Part 2 of 2) E/Arteaga Room                                         	 What is Known and Not Known E/Space 13&14
                                                                                     3:30 p.m. - 4:45 p.m.
              Wednesday, February 4                                                  r 	 Contaminant Monitoring Strategy Discussion E/LaPerouse Room
              9 a.m. - 12 a.m.
              r 	 Climate Change Sessions by The Alaska Municipal League             Thursday, February 5
              	 (Day 1 of 2) D/Tubughnenq’ Breakout Room 3                           2 p.m. - 3:15 p.m.
              9:30 a.m. - 10:30 a.m.                                                 r	 Environmental Health and Justice: Bringing Together Isolated
              r 	 Climate Change in Alaska: Building Resiliency - Health & Culture   	 Communities to Reduce Harmful Environmental Exposures from
              	 E/Arteaga Room                                                       	 Formerly Used Defense Sites and Global Transport
              10:45 a.m. - 11:45 a.m.                                                	 E/Space 9&10
              r 	 Climate Change in Alaska: Wildlife and Other Natural Systems
              	 E/Arteaga Room
              2 p.m. - 3:15 p.m.                                                     DENALI COMMISSION
              r 	 Climate Change in Alaska: Infrastructure - Our Built Environment
              	 E/Arteaga Room                                                       Wednesday, February 4
              3:30 p.m. - 4:45 p.m.                                                  9:30 a.m. - 10:30 a.m.
              r 	 Climate Change in Alaska: Discussion - Pulling it All Together     r 	 Investing in Rural Infrastructure (Part 1 of 2) E/Space 9&10
              	 E/Arteaga Room                                                       10:45 a.m. - 11:45 a.m.
                                                                                     r 	 Investing in Rural Infrastructure (Part 2 of 2) E/Space 9&10
              Thursday, February 5                                                   2 p.m. - 3:15 p.m.
              8 a.m. - 4:45 p.m.                                                     r 	 Community Solutions to Backhauling Old Tank Farms E/Space 3
              r 	 Climate Change: Research Coordination Workshop
              	 D/Tubughnenq’ Breakout Room 4&5
              8 a.m. - 12 p.m.
              r 	 Climate Change Sessions by The Alaska Municipal League
              	 (Day 2 of 2) D/Tubughnenq’ Breakout Room 3
              8 a.m. - 4 p.m.
              r 	 Climate Change - Mitigation Advisory Group Meeting
              	 Atwood Building




58	                             For Room Assignments: E= Egan Convention Center                         D= Dena’ina Convention Center
 ENERGY                                                                      ENVIRONMENTAL EDUCATION & OUTREACH




                                                                                                                                                      Subject
                                                                                                                                                      Agenda by
 Monday, February 2                                                          Monday, February 2
 10:30 a.m. - 11:45 a.m.                                                     10:30 a.m. - 11:45 a.m.
 r 	 Geothermal Potential in Alaska E/Space 9&10                             r 	The Reserved Warrior E/Space 11&12
 2 p.m. - 3:15 p.m.                                                          2 p.m. - 3:15 p.m.
 r 	 Integrated Energy Systems in Alaska E/Space 6                           r 	Making a Difference: Involving Local and Traditional Knowledge in
 3:30 p.m. - 4:45 p.m.                                                       	 Resource Management E/Space 11&12
 r 	 Electric Vehicle Technology E/Space 9&10
                                                                             Tuesday, February 3
 Tuesday, February 3                                                         9:30 a.m. - 10:30 a.m.
 9:30 a.m. - 10:30 a.m.                                                      r 	Community Forums: Discussing Natural Resource Management
 r 	 Electricity from Alaska’s Rivers - Instream Hydrokinetic Technologies   	 with your Neighbors (Part 1 of 2) E/Space 7&8
 	 Compared to Traditional Hydro E/Space 9&10                                10:45 a.m. - 11:45 a.m.
 r 	 Polar Bears in the North Slope Oil Fields: Preliminary Data and         r 	Community Forums: Discussing Natural Resource Management
 	 Potential Mitigation Measures to Reduce Bear-Human Interactions           	 with your Neighbors (Part 2 of 2) E/Space 7&8
 	 E/Space 2                                                                 2 p.m. - 3:15 p.m.
 10:45 a.m. - 11:45 a.m.                                                     r Green Infrastructure and Green Building: Putting Ideas Into Practice
 r 	 Wind Power Developments in Alaska: Challenges and Successes             	 - How Can We Do More? E/Space 3
 	 E/Space 9&10                                                              3:30 p.m. - 4:45 p.m.
 r 	 Program Review of ConocoPhillips North Slope Environmental              r Green Infrastructure and Green Building: What’s In It For Me?
 	 Studies E/Space 2                                                         	 E/Space 3
 2 p.m. - 3:15 p.m.                                                          r 	The Rebel Pebbles: How Youth in Dillingham Organized Around an
 r 	 The Denali Alaska Gas Pipeline - Major Environmental Issues and         	 Environmental Issue E/Space 6
 	 Challenges E/Space 11&12                                                  Wednesday, February 4
 r 	 Coal Development in Alaska E/Space 9&10                                 2 p.m. - 3:15 p.m.
 3:30 p.m. - 4:45 p.m.                                                       r 	Tribal Natural Resource Programs: A Pathway to Meaningful
 r 	 TransCanada’s Alaska Pipeline Project: The Engineering and              	 Involvement in Natural Resource Management (Part 1 of 2)
 	 Environmetal Partnership Approach E/Space 1                               	 E/Space 11&12
 r 	 Alaska Ocean Energy Potential E/Space 9&10                              3:30 p.m. - 4:45 p.m.
                                                                             r 	Tribal Natural Resource Programs: A Pathway to Meaningful
 Wednesday, February 4                                                       	 Involvement in Natural Resource Management (Part 2 of 2)
 9:30 a.m. - 10:30 a.m.                                                      	 E/Space 11&12
 r 	 Unlocking Heavy Oil Reserves on Alaska’s North Slope
 10:45 a.m. - 11:45 a.m.                                                     Thursday, February 5
 r 	 Biomass: A New Look at a Traditional Energy Source                      10:45 a.m. - 11:45 a.m.
 2 p.m. - 3:15 p.m.                                                          r 	Are Kids Connecting to Nature? E/Space 9&10
 r 	 Carbon Trading Laboratory                                               2 p.m. - 3:15 p.m.
 3:30 p.m. - 4:45 p.m.                                                       r 	Science Training and Education Programs for Alaska Natives and
 r 	 Carbon Trading Laboratory (Continued)                                   	 Rural Alaskans: K-12 and Pre-college Recruitment (Part 1 of 2)
                                                                             	 E/Space 6
                                                                             3:30 p.m. - 4:45 p.m.
                                                                             r 	Science Training and Education Programs for Alaska Natives and
                                                                             	 Rural Alaskans: Post-Secondary Education (Part 2 of 2) E/Space 6

                                                                             Friday, February 6
                                                                             8:30 a.m. - 4:30 p.m.
                                                                             r Project WET - Native Waters Workshop E/Space 3
                                                                             9:30 a.m. - 12 p.m.
                                                                             r Alaska Marine Science and Fisheries Career Coalition Workshop
                                                                             	 E/Space 5&6




Alaska Forum on the Environment • February 2-6, 2009		                                                  Paper is 100% post consumer recycled                 59
              ENVIRONMENTAL JUSTICE                                                      EXXON VALDEZ OIL SPILL (continued)
 Agenda by
    Subject
              Monday, February 2                                                         Tuesday, February 3
              3:30 p.m. - 4:45 p.m.                                                      2 p.m. - 3:15 p.m.
              r 	Participatory Process in the Alaska Pollutant Discharge Elimination     r 	Oil Spill Prevention and Response (Part 1 of 2)
              	 System: Optimizing Community Input E/Space 7&8                           	 E/LaPerouse Room
                                                                                         3:30 p.m. - 4:45 p.m.
              Wednesday, February 4                                                      r 	Oil Spill Prevention and Response, (Part 2 of 2)
              10:45 a.m. - 11:45 a.m.                                                    	 E/LaPerouse Room
              r 	The Role of Tribal Community and Academic Partnerships in
              	 Investigating Environmental Health Concerns in Alaska                    Wednesday, February 4
              	 E/Space 11&12                                                            9:30 a.m. - 11:45 a.m.
              2 p.m. - 3:15 p.m.                                                         r 	Transforming the Human Community: Connecting Conversations
              r 	The Impact of Dump Site Contaminants on Rural Populations:              	 for Peer Listener Networks E/Space 6
              	 What is Known and Not Known E/Space 13&14
                                                                                         Thursday, February 5
                                                                                         2 p.m. - 4:45 p.m.
              ENVIRONMENTAL REGULATIONS                                                  r 	Transforming the Human Community: Connecting Conversations
                                                                                         	 for Peer Listener Networks E/Space 7&8
              Monday, February 2
              10:30 a.m. - 11:45 a.m.
              r 	Brownfields: Federal Resources for Addressing                           FEDERAL GOVERNMENT ISSUES
              	 Contaminated Sites E/Space 13&14
              2 p.m. - 3:15 p.m.                                                         Monday, February 2
              r 	Alaska’s Brownfields Program and Current Projects                       10:30 a.m. - 11:45 a.m.
              	 E/Space 13&14                                                            r National Guard Response to Community Needs E/Space 4
                                                                                         r 	Brownfields: Federal Resources for Addressing
              Tuesday, February 3                                                        	 Contaminated Sites E/Space 13&14
              9:30 a.m. - 10:30 a.m.                                                     2 p.m. - 3:15 p.m.
              r 	Mitigation Measures: What are they? Why do we need them?                r Fort Richardson Environmental Restoration: Case Study of the
              	 E/Space 6                                                                	 Military Effort to Bring Back Waterfowl and Other Wildlife
              10:45 a.m. - 11:45 a.m.                                                    	 E/Space 4
              r 	Contaminated Sites: Cleanup, Closure, and Finding Out More              3:30 p.m. - 4:45 p.m.
              	 E/Space 1                                                                r Federal Restoration Status: Progress and Challenges of Federal
              2 p.m. - 3:15 p.m.                                                         	 Facility Environmental Restoration Efforts E/Space 4
              r 	Children Run Better Unleaded E/Space 13&14
                                                                                         Tuesday, February 3
              Wednesday, February 4                                                      9:30 a.m. - 10:30 a.m.
              3:30 p.m. - 4:45 p.m.                                                      r Responses to Hazard Discovery E/Space 4
              r 	Cruise Ship Regulations: My How They have Changed!                      r	 Mitigation Measures: What are they? Why do we need them?
              	 E/Space 3                                                                	 E/Space 6
                                                                                         10:45 a.m. - 11:45 a.m.
                                                                                         r Public Use of Federal Property: Opportunities for the Use of
              EXXON VALDEZ OIL SPILL                                                     	 Military Land for Hiking, Hunting, Recreation, etc. E/Space 4
                                                                                         2 p.m. - 3:15 p.m.
              Monday, February 2                                                         r Cultural Resources: Cultural Resource Management and You. Tools
              10:30 a.m. - 11:45 a.m.                                                    	 for Citizens (Part 1 of 2) E/Space 4
              r 	20 Years After the Exxon Valdez Oil Spill, Initial Impacts and Killer   3:30 p.m. - 4:45 p.m.
              	 Whales E/LaPerouse Room                                                  r Cultural Resources: Cultural Resource Management and You. Tools
              2 p.m. - 3:15 p.m.                                                         	 for Citizens (Part 2 of 2) E/Space 4
              r 	Oil Remains: 20 Years After the Exxon Valdez Oil Spill
              	 E/LaPerouse Room
              3:30 p.m. - 4:45 p.m.
              r 	Sea Otters, Herring, and the Future of Restoration - 20 Years After
              	 the Exxon Valdez Oil Spill E/LaPerouse Room




60	                             For Room Assignments: E= Egan Convention Center                               D= Dena’ina Convention Center
  FEDERAL GOVERNMENT ISSUES (cont.)                                     FILM FESTIVAL (continued)




                                                                                                                                                  Subject
                                                                                                                                                  Agenda by
  Wednesday, February 4                                                 Wednesday, February 4
  9:30 a.m. - 10:30 a.m.                                                9:30 a.m. - 10:30 a.m.
  r Government Mandates for Sustainability: Summary of Executive        r Film Festival: Ecosystem/Preserving the Environment, Solid
  	 Orders, Laws, etc., that Create a more Sustainable Federal          	 Waste/Recycling E/Space 5
  	 Government E/Space 4                                                10:45 a.m. - 11:45 a.m.
  10:45 a.m. - 11:45 a.m.                                               r Film Festival: Non-indigenous Species E/Space 5
  r Low-Impact Development: Beyond Compliance Design Practices to       2 p.m. - 3:15 p.m.
  	 Reduce Environmental Impact and Energy Use E/Space 4                r Film Festival: Solid Waste/Recycling E/Space 5
  2 p.m. - 3:15 p.m.                                                    3:30 p.m. - 4:45 p.m.
  r Climate Change Response Action: Summary of Federal Strategies       r Film Festival: Education E/Space 5
  	 to Tackle Climate Change E/Space 4
  3:30 p.m. - 4:45 p.m.
  r Living Marine Resources: Federal Government Efforts to Preserve 	   FISH, WILDLIFE & HABITAT
  	 the Marine Environment E/Space 4
                                                                        Monday, February 2
  Thursday, February 5                                                  10:30 a.m. - 11;45 a.m.
  9:30 a.m. - 10:30 a.m.                                                r 20 Years After the Exxon Valdez Oil Spill, Initial Impacts and Killer
  r Military Munitions Response Program: Program Overview - State         Whales E/LaPerouse Room
  	 of Alaska Perspective (Part 1 of 2) E/Space 4                       2 p.m. - 3:15 p.m.
  r	 Arctic Oil Spill Response E/Space 2                                r Fort Richardson Environmental Restoration: Case Study of the
  r	 Grants.gov: An Online Resource and Application Portal for          	 Military Effort to Bring Back Waterfowl and Other Wildlife
  	 Federal Grants E/Space 1                                            	 E/Space 4
  10:45 a.m. - 11:45 a.m.                                               r Alaska Monitoring and Assessment Program for Coastal and
  r Military Munitions Response Program: Quality Assurance at           	 Freshwater Resources E/Space 2
  	 Munition Response Sites (Part 2 of 2) E/Space 4                     3;30 p.m. - 4:45 p.m.
  2 p.m. - 3:15 p.m.                                                    r Sea Otters, Herring, and the Future of Restoration - 20 Years After
  r Federal Facility Remediation Roundtable: Open Discussion on         	 the Exxon Valdez Oil Spill E/Space LaPerouse Room
  	 Remedial Cleanup Projects (Part 1 of 2) E/Space 4
  3:30 p.m. - 4:45 p.m.                                                 Tuesday, February 3
  r Federal Facility Remediation Roundtable: Open Discussion on         9:30 a.m. - 10:30 a.m.
  	 Remedial Cleanup Projects (Part 2 of 2) E/Space 4                   r Helping People Help the Land E/Space 11&12
  r	 General Assistance Programs: Secrets, Tools, and Resources to a    r Mitigation Measures: What are they? Why do we need them?
  	 Clean Audit for Federal Grants E/Space 1                            	 E/Space 6
                                                                        r	Polar Bears in the North Slope Oil Fields: Preliminary Data and
                                                                        	 Potential Mitigation Measures to Reduce Bear-Human Interactions
  FILM FESTIVAL                                                         	 E/Space 2
                                                                        10:45 a.m. - 11:45 a.m.
  Monday, February 2                                                    r The Status and Trends of Ice Seals in Alaska E/Space 11&12
  10:30 a.m. - 11:45 a.m.                                               r Arctic Marine Ecosystems Changes E/Space 13&14
  r Film Festival: Opening Film - Youth and the Environment             2 p.m. - 3:15 p.m.
  	 E/Space 5                                                           r Walrus and Polar Bear -- What Next? (Part 1 of 2) E/Space 2
  2 p.m. - 3:15 p.m.                                                    3:30 p.m. - 4:45 p.m.
  r Film Festival: Ecosystem/Preserving the Environment E/Space 5       r Walrus and Polar Bear -- What Next? (Part 2 of 2) E/Space 2
  3:30 p.m. - 4:45 p.m.
  r Film Festival: Non-indigenous Species, Youth and the Environment,
  	 Education E/Space 5

  Tuesday, February 3
  9:30 a.m. - 10:30 a.m.
  r Film Festival: Ecosystem/Preserving the Environment E/Space 5
  10:45 a.m. - 11:45 a.m.
  r Film Festival: Non-indigenous Species E/Space 5
  2 p.m. - 3:15 p.m.
  r Film Festival: Education E/Space 5
  3:30 p.m. - 4:45 p.m.
  r Film Festival: Non-indigenous Species E/Space 5

Alaska Forum on the Environment • February 2-6, 2009		                                             Paper is 100% post consumer recycled                  61
              FISH, WILDLIFE & HABITAT (continued)                                GENERAL ASSISTANCE PROGRAM
 Agenda by
    Subject
              Wednesday, February 4                                               Monday, February 2
              9:30 a.m. - 10:30 a.m.                                              10:30 a.m. - 11:45 a.m.
              r	Rural Issues: Traditional Ecological Knowledge and Habitat        r Tribal Baseline Water Quality Monitoring for General Assistance
              	 Conservation E/Space 1                                            	 Programs E/Cook Room
              r	Contaminant Research in Alaskan Subsistence Species and Coastal   r Opportunities for Peer Grants Management Assistance: Alaska
              	 Waters E/LaPerouse Room                                           	 General Assistance Program Circuit Rider and Peer Assistance
              10:45 a.m. - 11:45 a.m.                                             	 Projects E/Space 1
              r Carbon Catchers, Chemistry & Climate: Changes to our Streams      2 p.m. - 3:15 p.m.
              	 E/Board Room                                                      r General Assistance Program Online For Trainers: Circuit Riders and
              r	Climate Change in Alaska: Wildlife and Other Natural Systems      	 Peer Assistance Providers E/Space 1
              	 E/Arteaga Room                                                    r General Assistance Program Grant Negotiations: Your Questions
              2 p.m. - 3:15 p.m.                                                  	 Answered E/Cook Room
              r Mysterious Demise of an Ice Age Relic E/Space 1                   3:30 p.m. - 4:45 p.m.
              3:30 p.m. - 4:45 p.m.                                               r General Assistance Program Online (Will be Repeated) E/Space 1
              r	Living Marine Resources: Federal Government Efforts to Preserve   r Using Health Assessments to Understand Contaminant Impacts in
              	 the Marine Environment E/Space 4                                  	 Your Community E/Cook Room

              Thursday, February 5                                                Tuesday, February 3
              9:30 a.m. - 10:30 a.m.                                              9:30 a.m. - 10:30 a.m.
              r Indigenous People’s Council for Marine Mammals                    r General Assistance Program Online: (Repeated) E/Space 1
              	 E/Space 9&10                                                      r Environmental Protection Agency Tribal Operations Committee: You
              r Predator Control: What’s the Justification? (Part 1 of 2)         	 Can Make a Difference! E/Cook Room
              	 E/Space 3                                                         10:45 a.m. - 11:45 a.m.
              10:45 a.m. - 11:45 a.m.                                             r EPA Tribal Consultation Procedures: Closed Session for Tribal
              r Predator Control - What’s the Biology? (Part 2 of 2) E/Space 3    	 Leaders E/Cook Room
              r Local Community Involvement: The Marine Mammals Protection        2 p.m. - 3:15 p.m.
              	 Act and the Endangered Species Act (Part 1 of 2) E/Space 1        r Weaving Culture and Language into Tribal Environmental Program
              2 p.m. - 3:15 p.m.                                                  	 Development E/Cook Room
              r Marine Debris Cleanup Along Alaska’s Coasts (Part 1 of 2)         3:30 p.m. - 4:45 p.m.
              	 E/Space 2                                                         r EPA Communications Protocols: North Slope Community Case
              r Local Community Involvement: The Marine Mammals Protection        	 Study E/Cook Room
              	 Act and the Endangered Species Act (Part 2 of 2) E/Space 1        r Local to Global: Community Based Projects of International Scope
              3:30 p.m. - 4:45 p.m.                                               	 E/Space 13&14
              r Marine Debris Cleanup Along Alaska’s Coasts (Part 2 of 2)
              	 E/Space 2                                                         Wednesday, February 4
                                                                                  8:45 a.m. - 11:45 a.m.
              Friday, February 6                                                  r Alaska Tribal Multi-Media Small Demonstration Projects: Innovative
              8:30 a.m. - 11:30 a.m.                                              	 Projects that Make Sense D/Tubughnenq’ Breakout Room 4
              r Tribal Conservation District Workshop E/Space 2                   9:30 a.m. - 10:30 a.m.
                                                                                  r Keeping Ahead of the Curve: General Assistance Program Grants
                                                                                  	 Management Changes and Developments for New Recipients
                                                                                  	 E/Cook Room
                                                                                  r Mining Fundamentals: An Introduction (Part 1 of 4) E/Space 2
                                                                                  9:30 a.m. - 4:45 p.m.
                                                                                  r Picture Exhibition: Before and After Community Abandoned Drum
                                                                                  	 Clean Up Projects E/Cook Room
                                                                                  10:30 a.m. - 11:45 a.m.
                                                                                  r Survey of Environmental Crimes in Alaska E/Space 1
                                                                                  10:45 a.m. - 11:45 a.m.
                                                                                  r Mining 101: Environmental Issues (Part 2 of 4) E/Space 2
                                                                                  r General Assistance Programs: Briefing Tribal Councils on
                                                                                  	 Environmental Program Developments E/Cook Room
                                                                                  2 p.m. - 3:15 p.m.
                                                                                  r Mining Regulatory Framework (Part 3 of 4) E/Space 2
                                                                                  3:30 p.m. - 4:45 p.m.
                                                                                  r Mining and Tribal Involvement (Part 4 of 4) E/Space 2

62	                              For Room Assignments: E= Egan Convention Center                        D= Dena’ina Convention Center
  GENERAL ASSISTANCE PROGRAM (cont.)                                      GREEN BUILDING / GREEN INFRASTRUCTURE




                                                                                                                                                    Subject
                                                                                                                                                    Agenda by
  Thursday, February 5                                                    Monday, February 2
  9:30 a.m. - 10:30 a.m.                                                  10:30 a.m. - 11:45 a.m.
  r Implementing the Alaska Pollution Discharge Elimination System        r Green Infrastructure and Green Building: An Overview E/Space 3
  	 E/Cook Room                                                           2 p.m. - 3:15 p.m.
  r Meet with an Environmental Protection Agency General Assistance       r Green Infrastructure in Alaska: Recent Activities and Accomplishments
  	 Program Project Officer and Ask Questions E/Space 13&14               	 E/Space 3
  r Grants.gov: An Online Resource and Application Portal for Federal     3:30 p.m. - 4:45 p.m.
  	 Grants E/Space 1                                                      r Green Building: What Is It and How Is It Being Applied in Alaska?
  10:45 a.m. - 11:45 a.m.                                                 	 E/Space 3
  r Alaska Natives and Climate Change Talking Session: A Traditional 		
  	 Discussion of a Modern Problem E/Cook Room                            Tuesday, February 3
  r Banning Plastic Bags and Styrofoam in Village Alaska                  9:30 a.m. - 10:30 a.m.
  	 E/Space 13&14                                                         r Green Building in Alaska’s Urban Environment E/Space 3
  2 p.m. - 3:15 p.m.                                                      10:45 a.m. - 11:45 a.m.
  r Two Topics, One Place: Brownfields Tribal Response Program Grants     r Green Building in Alaska’s Rural Environment E/Space 3
  	 and Emergency Response Planning for Villages E/Space 13&14            2 p.m. - 3:15 p.m.
  r Climate Change: Tribal Perspectives E/Cook Room                       r Green Infrastructure and Green Building: Putting Ideas Into Practice
  3:30 p.m. - 4:45 p.m.                                                   	 - How Can We Do More? E/Space 3
  r Logic Modeling & Performance Measurement: Learning to Tell Your       3:30 p.m. - 4:45 p.m.
  	 Performance Story E/Space 9&10                                        r Green Infrastructure and Green Building: What’s In It For Me?
  r Opportunities for Environmental Education and Stewardship through     	 E/Space 3
  	 Indian General Assistance Programs E/Cook Room
  r General Assistance Programs: Secrets, Tools, and Resources to a
  	 Clean Audit for Federal Grants E/Space 1                              NATIONAL ENVIRONMENTAL POLICY ACT

  Friday, February 6                                                      Monday, February 2
  9 a.m. - 11:45 a.m.                                                     3:30 p.m. - 4:45 p.m.
  r Training-the-Trainer: Teaching Logic Modeling & Work Plan             r Handling Climate Change Issues in National Environmental Policy Act
  	 Development & Performance Measurement E/Space 4                       	 Documents E/Space 6
  9:30 a.m. - 10:30 a.m.
  r How to use Film as a Community Conservation Tool                      Tuesday, February 3
  	 E/Space 9&10                                                          10:45 a.m. - 11:45 a.m.
  10:30 a.m. - 11:45 a.m.                                                 r Making the National Environmental Policy Act work for Rural
  r General Assistance Programs: GIS Applications for Tribal Lands        Alaskans
  	 E/Space 11&12                                                         	 E/Space 6
  1 p.m. - 2 p.m.                                                         2 p.m. - 3:15 p.m.
  r General Assistance Program Breakout Sessions                          r Public Health and the National Environmental Policy Act Process
  	 D/Tikahtnu Ballroom                                                   	 E/Space 6
  2:15 p.m. - 3:30 p.m.                                                   3:30 p.m. - 4:45 p.m.
  r Environmental Protection Agency General Assistance Program            r Health Impact Assessment and Natural Resource Development
  	 D/Tikahtnu Ballroom                                                   	 Permitting in Alaska: An Update on the Current Status and Future
                                                                          	 Directions E/Board Room




Alaska Forum on the Environment • February 2-6, 2009		                                              Paper is 100% post consumer recycled                   63
              RURAL ISSUES                                                          SOLID WASTE & RECYCLING (continued)
 Agenda by
    Subject
              Monday, February 2                                                    Thursday, February 5
              10:30 a.m. - 11:45 a.m.                                               9:30 a.m. - 10:30 a.m.
              r Rural Issues: Dump Site Erosion Impacts and Case Studies -          r Solid Waste Projects in Rural Alaska E/Space 7&8
              	 Nightmute and Kwigillingok E/Space 7&8                              10:45 a.m. - 11:45 a.m.
              10:30 a.m. - 11:45 a.m.                                               r Composting Programs Around Alaska E/Space 7&8
              r Rural Issues: Tribal Activities in Air Quality E/Space 6            r	 Banning Plastic Bags and Styrofoam in Village Alaska
              2 p.m. - 3:15 p.m.                                                    	 E/Space 13&14
              r Rural Issues: Addressing the Environmental Impact of Rural          2 p.m. - 3:15 p.m.
              	 Schools E/Space 7&8                                                 r Statewide Solid Waste Workgroup Meeting E/Space 3
                                                                                    3:30 p.m. - 4:45 p.m.
              Tuesday, February 3                                                   r Tribal Solid and Hazardous Waste Roundtable E/Space 3
              10:45 a.m. - 11:45 a.m.
              r Green Building in Alaska’s Rural Environment E/Space 3
              2 p.m. - 3:15 p.m.                                                    SUBSISTENCE
              r Rural Issues: Honeybuckets - A Process for Improving Human
              	 Waste Disposal Practice in Rural Alaska E/Space 7&8                 Monday, February 2
              3:30 p.m. - 4:45 p.m.                                                 10:30 a.m. – 11:45 a.m.
              r Rural Issues: The Impact of Construction and Demolition Waste       r	 Rural Issues: Dumpsite Erosion Impacts and Case Studies –
              	 on Rural Dump Sites E/Space 7&8                                     	 Nightmute and Kwigillingok E/Space 7&8
                                                                                    r	 The Reserved Warrior E/Space 11&12
              Wednesday, February 4                                                 2:00 p.m. – 3:15 p.m.
              9:30 a.m. - 10:30 a.m.                                                r	 Making a Difference: Involving Local and Traditional Knowledge in
              r Rural Issues: Traditional Ecological Knowledge and Habitat          	 Resource Management E/Space 11&12
              	 Conservation E/Space 1
                                                                                    Tuesday, February 3
                                                                                    10:45 a.m. – 11:45 a.m.
              SCIENCE & TECHNOLOGY                                                  r	 Arctic Marine Ecosystem Changes E/Space 13&14
                                                                                    r 	 Community Forums: Discussing Natural Resource Management with
              Wednesday, February 4                                                 	 your Neighbors (Part 2 of 2) E/Space 7&8
              2 p.m. - 3:15 p.m.                                                    2:00 p.m. – 3:15 p.m.
              r In-Situ Treatment for Chlorinated Organics E/Space 6                r 	 Rural Issues: Honeybuckets - A Process for Improving Human Waste
              3:30 p.m. - 4:45 p.m.                                                 	 Disposal Practice in Rural Alaska E/Space 7&8
              r Treatment of PCBs and Other Recalcitrant Organic Compounds
              	 E/Space 6                                                           Wednesday, February 4
                                                                                    9:30 a.m. – 10:30 a.m.
              Thursday, February 5                                                  r Tribal Subsistence Assessment Projects (Part 1 of 2)
              9:30 a.m. - 10:30 a.m.                                                	 E/Space 13&14
              r Fate and Transport of Petroleum Spills in Arctic Soils and Gravel   r	 Contaminant Research in Alaskan subsistence species and Coastal
              	 Pads E/Space 11&12                                                  	 Waters E/LaPerouse Room
              10:45 a.m. - 11:45 a.m.                                               10:45 a.m. – 11:45 a.m.
              r Using the Ultra-Violet Optical Screening Tool System                r	 Tribal Subsistence Assessment Projects (Part 2 of 2)
              	 Technology for Rapid Field Screening of Petroleum                   	 E/Space 13&14
              	 Contamination in Soil E/Space 11&12                                 r	 Community Focused Contaminant Monitoring Projects
              2 p.m. - 3:15 p.m.                                                    	 E/LaPerouse Room
              r Multi-Incremental Soil Sampling: When or When Not to Use It         2:00 p.m. – 3:15 p.m.
              	 E/Space 11&12                                                       r	 Tribal Natural Resource Programs: A Pathway to Meaningful
                                                                                    	 Involvement in Natural Resource Management (Part 1 of 2)
                                                                                    	 E/Space 11&12
              SOLID WASTE & RECYCLING                                               3:30 p.m. – 4:45 p.m.
                                                                                    r	 Tribal Natural Resource Programs: A Pathway to Meaningful
              Monday, February 2                                                    	 Involvement in Natural Resource Management (Part 2 of 2)
              10:30 a.m. - 11:45 a.m.                                               	 E/Space 11&12
              r Landfill Leachate Recirculation Projects E/Space 2
              2 p.m. - 3:15 p.m.                                                    Thursday, February 5
              r University of Alaska Anchorage: Doctorate Program                   10:45 a.m. – 11:45 a.m.
              	 Presentation E/Space 9&10                                           r	 Local Community Involvement: The Marine Mammals Protection Act
              3:30 p.m. - 4:45 p.m.                                                 	 and the Endangered Species Act (Part 1 of 2) E/Space 1
              r Recycling Roundtable E/Space 11&12                                  2:00 p.m. – 3:15 p.m.
              Wednesday, February 4
                                                                                    r	 Local Community Involvement: The Marine Mammals Protection Act
                                                                                    	 and the Endangered Species Act (Part 2 of 2) E/Space 1
              2 p.m. - 3:15 p.m.
              r	 Community Solutions to Backhauling Old Tank Farms
              	 E/Space 3
64	                              For Room Assignments: E= Egan Convention Center                            D= Dena’ina Convention Center
                                                         A. Dena¹ina Convention Center




                                                                                                                Conference Maps
                                                         600 W. Seventh Ave Anchorage, AK 99510

                                                         B. Egan Civic & Convention Center
                                                         555 W 5th Ave Anchorage, AK 99501

                                                         C. Anchorage Marriott Downtown
                                                         820 W. 7th Ave Anchorage, AK 99501




                                                                    Alaska Forum on the Environment
                                                              Registration Services and all Keynote Events
                                                           will be located at the Dena’ina Convention Center,
                                                            TIKAHTNU (COOK INLET) BALLROOM, 3rd Floor




                   EGAN CENTER FLOORPLANS


                    Explorers Hall - Street Level




                    Summit Hall




Alaska Forum on the Environment • February 2-6, 2009		                 Paper is 100% post consumer recycled                       67
      Conference Maps
                        DENA’INA CENTER FLOORPLANS


                                           2nd FLOOR: KAHTNU (KENAI) - MEETING ROOMS 1 & 2
                                           TUBUGHNENQ’ (TYONEK) - MEETING ROOMS 3, 4 & 5
                                           K’ENAKATNU (KNIK) EXECUTIVE BOARD ROOM




                           3rd FLOOR: TIKAHTNU (COOK INLET) - BALLROOM




                                                                       Alaska Forum on the Environment
                                                                 Registration Services and all Keynote Events
                                                              will be located at the Dena’ina Convention Center,
                                                               TIKAHTNU (COOK INLET) BALLROOM, 3rd Floor




68	                      For Room Assignments: E= Egan Convention Center          D= Dena’ina Convention Center
